                                     www.epa/oigearth
                              Report No. 2001-P-00013
Office of Inspector General               August 2001

Audit Report




 Water Enforcement:

 State Enforcement of
 Clean Water Act Dischargers
 Can Be More Effective
Inspector General Divisions                 Western Audit Division, San Francisco, CA
 Conducting the Audit:                      Southern Audit Division, Atlanta, GA
                                            Central Audit Division, Kansas City, KS

Program Office and Regions                  Office of Enforcement and Compliance Assurance
 Involved:                                    EPA Regions 4, 8, and 9




Cover Photo: Wastewater discharge from a California facility into Suisun Bay
             (Photo by Dan Cox, EPA OIG)
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF THE INSPECTOR GENERAL FOR AUDIT
                                          WESTERN DIVISION
                                       75 HAWTHORNE STREET
                                      MAIL CODE IGA-1, 7 TH FLOOR
                                    SAN FRANCISCO, CA 94105-3901


                                            August 14, 2001




MEMORANDUM

SUBJECT:        Final Report No. 2001-P-00013
                State Enforcement of Clean Water Act Dischargers Can Be More Effective

FROM:           Charles McCollum /s/
                Divisional Inspector General for Audit
                Western Division

TO:             Sylvia Lowrance
                Acting Assistant Administrator for
                 Enforcement and Compliance Assurance

Attached is our final report, “State Enforcement of Clean Water Act Dischargers Can Be More
Effective.” The purpose of the audit was to determine whether EPA-authorized state enforcement
programs protect the environment and human health. Our audit included your office, three regions, and
one state within each region. We also took into account the results from a National State Auditors’
Association joint review of state water programs.

This audit report contains findings that describe problems we have identified and corrective actions we
recommend. This report represents the opinion of the OIG; the findings in this report do not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by EPA
managers according to EPA audit resolution procedures.

ACTION REQUIRED

According to EPA Order 2750, you (as the action official) are required to provide this office with a
written response to this report within 90 days of its issuance. For corrective actions planned but not
completed by the response date, please provide the specific milestone dates for completing these
actions.
If you or your staff have any questions, please contact me at (415) 744-2445, or Katherine Thompson,
Team Leader, at (916) 498-6535. Additional copies of this report may be obtained from us or our
website, www.epa.gov/oigearth/.
                        Executive Summary


Objective          The objective of the audit was to determine whether state enforcement
                   of Clean Water Act discharge programs protect human health and the
                   environment. This audit resulted from concerns over the effectiveness of
                   state enforcement programs.

                   Forty-four states play a major role in implementing the Clean Water
                   Act’s National Pollutant Discharge Elimination System program. These
                   states have EPA approval to issue and enforce permits that set limits on
                   pollutants that can be discharged into our nation’s surface waters. We
                   evaluated state enforcement of discharge programs in three regions;
                   within each region, we evaluated one EPA-approved state program.
                   We also took into account information from five state audits.



Results in Brief   We believe that state enforcement programs could be much more
                   effective in deterring noncompliance with discharge permits and,
                   ultimately, improving the quality of the nation’s water. EPA and the
                   states have been successful in reducing point source pollution since the
                   Clean Water Act passed in 1972. However, despite tremendous
                   progress, nearly 40 percent of the nation’s assessed waters are not
                   meeting the standards states have set for them.

Strategies Need    The state enforcement strategies we evaluated needed to be modified to
Reconsideration    better address environmental risks, including contaminated runoff.
                   Contaminated runoff, including agricultural and urban runoff, was widely
                   accepted as causing the majority of the nation’s remaining water quality
                   problems. Although many sources of contaminated runoff were
                   regulated, some were not.

                   EPA’s Office of Enforcement and Compliance Assurance had set
                   national enforcement priorities for urban and agricultural runoff, including
                   storm water dischargers, sewer overflows, and concentrated animal
                   feeding operations. However, its core program and monitoring systems
                   have emphasized major industrial facilities and larger sewage treatment
                   plants. State strategies were also inhibited by:
                       • Inadequate water quality data.
                       • Incomplete permit data.
                       • EPA-state relationships.
                       • State concerns over regulating small and economically vital
                           businesses and industries.

                                        i
Compliance and              The states we evaluated did not have
Enforcement Systems         sufficient information on dischargers to        State Enforcement
Deficient                   effectively implement their programs. A       Program Deficiencies
                            major barrier to state program management • Compliance systems lacked
                            was the lack of information about hundreds of data for hundreds of
                            thousands of dischargers that contributed to   thousands of smaller
                            water quality problems.                        dischargers
                                                                           • Serious toxicity violations
                            EPA’s Permit Compliance System—its               and other violations were not
 One critical missing
                            national permitting and enforcement              reported
 component of the
                            system—was incomplete, inaccurate and          • Strategies for identifying
 Permit Compliance
 System was                 obsolete. The growth, variety and complexity unpermitted storm water
                            of the regulated community had greatly           dischargers were
 electronic
                            outstripped the system capabilities.             incomplete
 transmission of self-
 monitoring reports.        Hundreds of thousands of dischargers were • Enforcement actions were
 Without electronic         not monitored by the system. Although many issued a year or more after
                            states were developing their own systems,        violation
 reporting by
                            they did not fill the information void.        • Penalties failed to recover
 dischargers, it was
                                                                             economic benefit of
 virtually impossible for
                            States also had weaknesses in their              noncompliance
 states to monitor
                            compliance monitoring and enforcement          • Proactive strategies to avoid
 compliance with all
                            systems, including not reporting serious,        serious violations needed
 permits.
                            significant violations. The states we evaluated further development
                            did not implement effective storm water
                            compliance monitoring programs to detect
                            and correct noncompliance in higher risk areas. Moreover, states
                            needed to improve their enforcement response to significant violations to
                            prevent further violations. Most of the enforcement actions we reviewed
                            did not meet EPA’s criteria for timeliness and often did not recover the
                            economic benefit gained by violators.

                            Finally, to ensure fair and effective enforcement of the Clean Water Act,
                            EPA regions need to improve their in-depth program evaluations and
                            annual performance evaluations of state performance. These evaluations
                            need to be consistent, continue toward a goal of measuring the
                            effectiveness of performance, and be made easily accessible to the
                            public.

Other Matters               In determining the status of EPA’s plan to modernize its Permit
                            Compliance System, we found that the Office of Enforcement and
                            Compliance Assurance had not successfully collaborated with the Office
                            of Water and the states in the design of the new system requirements.




                                                 ii
Recommendations             We are recommending that the Office of Enforcement and Compliance
                            Assurance, in partnership with the Office of Water and EPA regions,
                            collaborate with states to develop risk-based enforcement priorities.
 “A modernized              EPA also should make modernizing its Permit Compliance System a high
 [Permit                    priority. Teaming with EPA’s Office of Water and the states, the Office
 Compliance]                of Enforcement and Compliance Assurance should ensure that the new
 system should              system will meet both federal and state needs.
 fulfill many
 programmatic               We are also recommending that the Office of Enforcement and
 needs and                  Compliance Assurance revise its enforcement guidance to better define
 contribute to the          significant violations for toxicity test failures, minor facilities, and storm
 demonstration of           water dischargers.
 environmental
 outcomes and               Lastly, the Office of Enforcement and Compliance Assurance should
 results.”                  routinely determine whether states are fulfilling their obligations to
     -EPA Office of Water   monitor and enforce discharge programs. To do so, the Office should
                            develop consistent criteria for in-depth program evaluations of state
                            programs. These evaluations, along with state performance measures,
                            should be accessible to the public.

Agency                      The Office of Enforcement and Compliance Assurance agreed with
Comments                    several of the conclusions in the report, including that states need to
                            implement risk-based approaches to water enforcement and that it
                            would be useful to have a process for periodic evaluation of the Clean
                            Water Act program in each state. It agreed that modernizing the Permit
                            Compliance System should be a high priority.

                            However, the Office expressed concern about the way some of the
                            issues, as well as EPA’s role, were characterized in the report, and
                            claimed that many of the findings were based on “anecdotal
                            information.” The Office stated the draft report did not recognize that
                            (1) it had an exhaustive process for setting national enforcement
                            priorities, (2) states should be responsible for setting watershed-specific
                            enforcement priorities, and (3) permit program requirements had
                            flexibility that supported state enforcement strategies. The Office also
                            believed the issues related to the Permit Compliance System were
                            oversimplified.

                            The Office of Enforcement and Compliance Assurance believed that
                            existing national enforcement guidance had the necessary flexibility to
                            address toxicity, minors, and storm water violations. It agreed to work
                            with EPA regions to ensure that the states were aware of the guidance.
                            The Office agreed to consider the OIG’s specific recommendations


                                                 iii
               when guidance is updated in the future. The Office also agreed that
               elements of state compliance and enforcement programs need to be
               periodically evaluated.

OIG Position   The Office of Enforcement and Compliance Assurance either specifically
               agreed with the vast majority of our conclusions or did not dispute them.
               However, in many cases it did not agree to a specific course of action to
               correct the problem. Instead, the Office defended existing guidance,
               processes, and systems. It agreed to reassess some of its guidance, but
               did not state when. It proposed alternative recommendations, but did
               not agree to take them.

               In short, the Office was reluctant to change its current way of conducting
               business. However, the current way of conducting business was
               marginally effective.

               We agree that states have helped develop national priorities and that
               they are responsible for developing risk-based strategies. However,
               states cannot be fully effective until the Office of Enforcement and
               Compliance Assurance allows states more latitude in the redirection of
               their resources.

               Also, EPA had taken too long to modernize the Permit Compliance
               System, leaving huge information gaps for minor and storm water
               dischargers that rendered the system inadequate. Further, the existing
               guidance and processes for ensuring the prevention or correction of
               significant toxicity, minor discharger, and storm water violations were not
               working – thousands of toxicity violations occurred nationally and
               numerous facilities had recurring violations. The guidance needs
               updating.

               Although the Office of Enforcement and Compliance Assurance asserted
               our conclusions in this report were based on “anecdotal” evidence, we
               disagree. Anecdotal information was only used to provide examples.
               As discussed with the Office, our audit was based on extensive data
               analysis, document reviews, interviews, surveys, and observations.
               Details on our scope and methodology are in Exhibit 1, page 65.




                                   iv
                                                     Table of Contents

                                                                                                                                       Page

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

Part I: Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          Chapter 1: Objective, Background, and Scope and Methodology . . . . . . . . . . . . . . . . . . . . . 1

Part II: Strategies Need Reconsideration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Chapter 2: State Enforcement Strategies Need to Be Modified . . . . . . . . . . . . . . . . . . . . . . . 5

Part III: Compliance Monitoring and Enforcement Systems Deficient . . . . . . . . . . . . . . . . 17

          Chapter 3: Permit and Other Information Systems Inadequate . . . . . . . . . . . . . . . . . . . . . . . 19

          Chapter 4: Storm Water Compliance Systems Have Deficiencies . . . . . . . . . . . . . . . . . . . . 35

          Chapter 5: Enforcement Actions Late and Penalties Insufficient . . . . . . . . . . . . . . . . . . . . . . 43

          Chapter 6: Improved Performance Evaluation and Measurement Needed . . . . . . . . . . . . . . 53

Exhibits

1 - Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

2 - Other Matters: Key Management Decisions Needed for the Permit Compliance System . . . . . . 69

3 - Report Contributors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75

4 - Report Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77

Appendix: Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79
                          Part I
                      Introduction

                               Chapter 1
   Objective, Background, and Scope and Methodology

Objective       The objective of the audit was to determine whether state enforcement of
                Clean Water Act discharge programs protects human health and the
                environment.



Background      The purpose of the Clean Water Act’s discharge permit program is to
                protect human health and the environment by setting limits on pollutants that
                can be discharged into our nation’s surface waters. The goal of the Clean
                Water Act is for all rivers, lakes, and estuaries to be swimmable and
                fishable.

                Citizens, industries, states, local governments, and the federal government
                have done much to improve the quality of our nation’s waters in the last 30
                years:
                    • More than a trillion dollars, much of it authorized under the Clean
                        Water Act, was spent to build, upgrade, and expand wastewater
                        treatment facilities.
                    • EPA and the states have written and enforced over 70,000 permits
                        to limit pollutants.
                Controlling point sources has removed billions of pounds of pollutants from
                our waters and doubled the number of waters safe for drinking and
                swimming. Much of this success can be credited to the Clean Water Act,
                which was enacted in 1972.

                Despite the successes of the Act, EPA reports that a majority of Americans
                live within 10 miles of a polluted river, lake, stream or coastal area.
                Although there is not an accurate portrayal of water quality conditions
                nationwide, the 1998 National Water Quality Inventory found that nearly
                40 percent of the nation’s assessed waters were not meeting the standards
                states have set for them.


                                     1
Discharge System                    Much of the                        States with EPA Approval to
                                    Clean Water                           Issue Discharge Permits
                                    Act’s
                                    improvements
                                    can be attributed
                                    to the National
                                    Pollutant
                                    Discharge
                                    Elimination
                                    System, a
                                    program to                                               EPA Approval
                                    control                                                  No EPA Approval

                                    discharges from
                                    “point sources”
                                    of pollution. Point sources are discrete conveyances, such as pipes or man-
                                    made ditches.

                                    Forty-four states play a major role in implementing the Clean Water Act’s
                                    discharge program. These states have EPA approval to issue and enforce
                                    permits that set limits on pollutants that can be discharged into our nation’s
                                    surface waters. EPA regions issue permits in the remaining states.

                                    Several categories of discharges are covered under the permit program,
                                    including municipal waste water and industrial process waste water. These
                                    facilities are generally classified as major or minor, depending on size and
                                    nature of the discharges. For example, a major municipal treatment plant
                                    typically discharges one million gallons or more per day.

Runoff Permits                      In 1987, Congress added provisions to the Clean Water Act that called
                                                                   attention to another source of problems
                                                                   that was believed to be responsible for
                                                                   continuing water quality problems:
                                                                   contaminated runoff from agriculture,
                                                                   airborne pollution, forestry, and urban
                                                                   development.

                                                                       Amendments to the Clean Water Act and
                                                                       subsequent regulations require permits for
                                                                       storm water runoff from industrial activity,
                                                                       large and medium municipal storm water
                                                                       systems, and construction activities. Also,
                                                                       certain concentrated animal feeding
                                                                       operations, primarily those with over 1,000
     Idaho animal feeding operation runoff drains into a Snake River
                                                                       animals and those discharging into waters,
                             tributary
                                                               2
                               are subject to permit requirements. By law, most irrigated agricultural
                               discharges have been excluded from permit requirements.

State Enforcement              In order for states to have effective enforcement systems, they need sound
Systems                        enforcement strategies and compliance monitoring systems. They also need
                               to take prompt and appropriate enforcement actions that deter future
                               noncompliance not only at the facility, but at other facilities. EPA has
                               developed an enforcement management system which sets criteria for
                               identifying and reporting significant violations. In addition to enforcement
                               guidance, the Office of Enforcement and Compliance Assurance issues the
                               Memorandum of Agreement Guidance that establishes national priorities
  Self-Monitoring              for enforcement programs.
      Reports
                               States monitor facility compliance through inspections and self-monitoring
     Self-monitoring           reports. EPA recommends that states inspect major facilities annually.
    reports prepared
        by facility            Also, facilities are required to regularly analyze their discharge and report the
                               results on self-monitoring reports. States compare self-monitoring reports to
 Reports entered into Permit   permit limits to determine compliance. In addition, major dischargers are
    Compliance System
                               required to report significant violations to states within 24 hours.

   System creates quarterly    States report significant violations to EPA in a quarterly noncompliance
    noncompliance report
                               report. This report identifies major dischargers with significant violations, the
                               nature of the violation, and the type of enforcement actions taken in
       Quarterly non-
    compliance report sent
                               response to those violations. EPA has defined violations of a sufficient
           to EPA              magnitude or duration as “significant” in order to target those violations for a
                               high enforcement priority.

                               EPA has established standards for taking enforcement actions on significant
                               violations. Generally, if a major facility has two significant violations in two
                               consecutive quarters, a state is expected to take a formal enforcement action
                               before the end of the following quarter. EPA also recommends assessing
                               penalties that recover the economic benefit of noncompliance gained by the
                               violator.

Issues Impacting               Nationally, there are two important issues that impact the effectiveness of
Enforcement                    permit enforcement in protecting human health and the environment.
Effectiveness
                                    • The backlog of expired discharge permits.
                                    • The implementation of the Total Maximum Daily Load Program.

• Expired Permits              A backlog of expired permits is an ongoing, national problem that impairs
                               enforcement. In fiscal 2000, about 25 percent of discharger permits for
                               major facilities nationwide were expired. Federal law requires permits to be
                               updated every five years. Permits are updated and reissued in order to

                                                     3
                          conform with changing state and federal laws, pollution control technology,
                          and water quality conditions. Outdated permits may not reflect new
                          technology or water quality objectives, thereby impairing enforcement
                          effectiveness.

•    Total Maximum        In the future, permit compliance will take on more importance in meeting
     Daily Load           water quality standards because of the Clean Water Act’s Total Maximum
     Program              Daily Load Program. A total maximum daily load is a calculation of the
                          maximum amount of a pollutant that a water body can receive and still meet
                          water quality standards, and an allocation of that amount to the pollutant’s
                          sources.

    Total maximum         States are required to:
    daily load = sum of
    non-point sources         •   Identify water bodies not meeting water quality standards;
    + sum of point            •   Set priorities for calculating total maximum daily load;
    sources + margin          •   Develop a total maximum daily load for each pollutant in each listed
    of safety                     waterway; and,
                              •   Allocate loadings to both permitted dischargers and to non-point
                                  sources.

                          States have just begun to implement this program for water bodies identified
                          as impaired. It is likely that permit limits for some pollutants will be more
                          stringent after total maximum daily load calculations are completed. And, if
                          limits are exceeded, it may prevent the water body from meeting water
                          quality standards.


                          This audit resulted from concerns over the effectiveness of state enforcement
Scope and
                          programs. We focused on the Clean Water Act discharge program because
Methodology               of a lack of recent audit coverage in this area.

                          In addition to evaluating national data, we evaluated three EPA regions: 4, 8,
                          and 9. In each region, we evaluated one state with EPA approval to issue
                          discharge permits: California (Region 9), North Carolina (Region 4), and
                          Utah (Region 8). We also took into account recent audit reports from the
                          following states: Arkansas, Colorado, Louisiana, Maryland, and Oregon.
                          Our scope and methodology are further discussed in Exhibit 1, page 65.




                                               4
                           Part II
              Strategies Need Reconsideration
                                                 Chapter 2
        State Enforcement Strategies Need to Be Modified

                                   State enforcement strategies and systems needed to be modified to meet the
                                   goals of the Clean Water Act and to better protect human health and the
                                   environment. In the three states we reviewed, there were opportunities to
                                   better align enforcement strategies and resources with water quality
                                   impairments.
“...nearly 40 percent of
the nation’s assessed              EPA and the states have been successful in reducing point source pollution
waters are not meeting             since the Clean Water Act passed in 1972. However, despite tremendous
the standards states               progress, nearly 40 percent of the nation’s assessed waters are not meeting
have set for them.”                the standards states have set for them. Contaminated runoff, both regulated
      -Office of Water, May 2000   and unregulated, is widely accepted as causing the majority of the nation’s
                                   remaining water quality problems.

                                   In the past, EPA and the states have focused their efforts on major
                                   dischargers because they were relatively few in number but discharged large
                                   quantities of pollutants. We believe enforcement strategies should be
                                   environmentally risk-based and better address:
                                       • The relative risks presented by contaminated runoff, such as storm
                                            water and concentrated animal feeding operations.
                                       • A rapidly growing number of smaller dischargers.
                                       • Unique problems causing impairments in individual watersheds.

                                   EPA’s Office of Enforcement and Compliance Assurance had set national
                                   enforcement priorities and developed strategies for addressing runoff,
                                   including storm water dischargers, sewer overflows, and concentrated
                                   animal feeding operations. However, its core program and monitoring
                                   systems emphasized major industrial facilities and larger sewage treatment
                                   plants. State strategies were also inhibited by:
                                       • Inadequate water quality data.
                                       • Incomplete permit data.
                                       • EPA-state relationships.


                                                        5
                                          •    State concerns over regulating small and economically vital
                                               businesses and industries.


                                     EPA’s Strategic Plan lays out the Agency’s 10 long-term goals for
EPA’s Strategic
                                     protecting human health and safeguarding the environment. In addition to
Plan                                 long-term goals for achieving clean air, clean water, and safe food, one of
                                     EPA’s 10 goals is to ensure full compliance with laws intended to protect
                                     human health and the environment.

                                     EPA cannot achieve its goals without partnerships with states. States play a
                                     major role in implementing the Clean Water Act’s discharge program.
                                     Forty-four states have EPA approval to issue and enforce Clean Water Act
                                     discharge permits. EPA regions issue discharge permits in the remaining
                                     states. States write more than 90 percent of all federal environmental
                                     permits and take over 75 percent of enforcement actions.



Need for New                         In the past, EPA and the states have focused their efforts on major
                                     dischargers because they were relatively few in number but discharged large
Strategies
                                     quantities of pollutants. We believe enforcement strategies should be
                                     environmentally risk-based and better address:

                                     •    Changing sources of pollution;
                                     •    An increasing universe of permit holders; and
                                     •    Watershed approaches to improving water quality.

Changing Sources of                  Contaminated runoff, such as agricultural and urban runoff, was widely
Pollution                            accepted as causing the majority of the nation’s remaining water quality
                                                                    problems. Agricultural runoff (crops and
                                                                    animal husbandry) was ranked as the number
                                                                    one cause of impaired rivers, streams, and
                                                                    lakes. Some of these sources have been
                                                                    regulated; others, such as irrigation runoff,
                                                                    have not.

                                                                      EPA issued regulations in 1976 to permit
                                                                      discharges from concentrated animal feeding
                                                                      operations; since that time, the livestock
                                                                      industry substantially increased both the
                                                                      number and size of these large animal feeding
                                                                      operations. Combined releases of more than
  Swimmers frolic in Southern California waters often posted as       30 million gallons of animal waste to surface
  unsafe due to urban runoff. (Photograph by Chas Mativier,
  Orange County Register.)
                                                                  6
                       water in a number of states have highlighted the adverse environmental
                       impacts of concentrated animal feeding operations. By law, agricultural
                       storm water discharges and return flows from irrigated agriculture have been
                       excluded from permit requirements.

                       In order to address urban runoff, the Clean Water Act was amended in
                       1987 to regulate municipal and industrial storm water discharges. Phase II
                       of these
                       regulations was
                                                                Clean Water Act Permits
                       added in 1999,                      (Includes Phase II Storm Water Permits)
                       thereby regulating
                       a large number of                                  Major
                                                                           6,749
                       smaller facilities.               Minor             1.3%
                                                         104,000
                       Storm water is a                   20.3%
                       continuing                 CAFO
                       concern; it was            15,000
                                                   2.9%
                       the largest source
                       of water pollution
                                                                                         Storm Water
                       in urban areas,                                                      385,900
                       such as Los                                                           75.4%
                       Angeles.
                                                           CAFO is concentrated animal feeding operation
                                                                 Source: EPA Office of Water
                       In response to
                       changing
                       regulations and
                       sources of water impairments, the Office of Enforcement and Compliance
                       Assurance has suggested enforcement strategies for storm water dischargers
                       and concentrated animal feeding operations. These strategies are accessible
                       by states.

Increasing Permit      The addition of storm water regulations more than tripled the regulated
Universe               universe. The ballooning regulated universe, along with other issues, such as
                       the backlog of out-of-date permits and the lack of data systems, has made it
                       virtually impossible for states to fully permit, monitor, and enforce the
                       regulated universe.

Watershed Strategies   The watershed approach to
                       solving water quality problems     “To achieve the nation’s clean and
                       calls for individual strategies    safe water goals, EPA will implement
                       tailored to each watershed         the watershed approach....”
                                                                            -EPA’s Fiscal 2001 Annual Plan
                       rather than a focus on major
                       dischargers or types of
                       agricultural or urban runoff.

                                            7
                                  EPA’s annual plan calls for a watershed approach to fulfill the goal of the
                                  Clean Water Act. EPA regions have partnered with states, local
                                  governments, private industry, and environmental organizations to create
                                  some effective watershed strategies.




                                  The states we reviewed continued to
States Can                                                                           Contaminated runoff is
                                  emphasize inspecting and monitoring major
Improve                                                                              widely accepted as
                                  dischargers, although contaminated runoff,
Effectiveness                     including storm water runoff, was widely           causing the majority of
                                                                                     the nation’s water quality
                                  accepted as causing the majority of the
                                                                                     problems.
                                  nation’s remaining water quality problems.
                                  EPA and the states could improve the
                                  effectiveness of state enforcement programs
                                  by developing risk-based enforcement strategies. EPA has a role in
                                  evaluating the effectiveness of state strategies and supplementing them, when
                                  necessary and feasible.

                                  In the three states we reviewed, there were opportunities to better align
                                  enforcement strategies and resources with water quality impairments.

California                        California identified storm water as its most serious water quality problem.
                                  However, it had invested relatively little resources in inspecting and
                                  monitoring storm water. Meanwhile, storm water runoff continued to cause
 “The polluted runoff             water impairments and beach closures. At the same time, the state had a
 problem is the number            relatively significant investment in monitoring and enforcing its major
 one water pollution              dischargers, although the state reported a relatively high compliance rate. In
 problem in California.”          fiscal 2000, the state increased its storm water staffing; however, it needed
         -California Resources
                      Secretary   to further evaluate whether its enforcement resources would yield a better
                                  return by monitoring other sources.

North Carolina                    North Carolina had not developed a strategy for monitoring compliance with
                                  storm water permits, although storm water was a significant contributor to its
                                  water quality impairments. As discussed in Chapter 6 (page 53), North
                                  Carolina was taking actions to better measure the effectiveness of its
                                  enforcement strategies.

Utah                              We found indicators that Utah could more effectively use its enforcement
                                  resources to address the risks that agricultural and urban runoff presented to
                                  Utah’s water quality. Specifically, agricultural practices, land development,
                                  and urban runoff were listed as sources of impairments of surface waters or
                                  ground water. However, we found that monitoring strategies were not fully

                                                        8
                       developed for either its storm water or concentrated animal feeding
                       operation dischargers.



Reasons for            We believe the emphasis on major dischargers was typical of many states
                       because EPA’s implementation of the Clean Water Act focused on major
Emphasis on
                       dischargers. Due to limited resources, EPA and the states had decided
Major Dischargers      many years ago to focus on major dischargers because they were relatively
                       few in number but discharged large quantities of waste water. Subsequently,
                       EPA and state management systems were well developed for major
                       dischargers but not for other sources, such as storm water, which had new
                       types of permit limits.

                       States needed more latitude in the redirection of their resources. The state
                       programs we reviewed did not have the resources and systems to permit,
                       monitor, and fully regulate smaller dischargers, such as storm water. States
                       did not have mechanisms to evaluate tradeoffs in different enforcement
                       strategies. Also, states were not encouraged to divest in major dischargers.

Implementation         Much of the Clean Water Act’s implementation over the last quarter of a
Focuses on Major       century focused on addressing point sources, particularly major dischargers:
Dischargers
                       •   EPA and many of the EPA regions emphasized inspecting, monitoring,
                           and enforcing major discharger permits in program guidance,
                           performance measures, and oversight reviews.

                       •   The Code of Federal Regulations required states to have the capability
                           to inspect all major dischargers annually. EPA and its regions stressed
                           and monitored the annual inspection of all major dischargers. Utah cited
                           EPA’s 100 percent inspection requirement of major dischargers as one
                           reason it was difficult to shift to other priorities.

                       •   EPA’s Permit Compliance System included little data for nonmajor
                           dischargers. Because of states’ concerns over the cost of data entry
                           requirements, EPA policy did not require data from other dischargers to
                           be entered into the system.

                       •   National standards were set for taking action on significant violations by
                           major dischargers but standards were unclear for other dischargers.

Contaminated Runoff    The state programs we reviewed did not have the resources and information
Not Easily Regulated   systems to permit, monitor, and fully enforce regulated runoff, such as storm
                       water. As discussed more fully in Chapter 4 (page 35), the states we

                                            9
                          reviewed had minimal coverage of storm water dischargers. The addition of
                          storm water regulations greatly increased the size of the regulated universe
                          without a commensurate increase in resources or information systems. Thus,
                          states were limited in their ability to implement, monitor, and enforce storm
                          water regulations. Further, as one EPA region noted, states were expected
                          to fully implement the “core” program before moving onto programs to
                          regulate contaminated runoff.

Mechanisms for            The states we evaluated did not have mechanisms in place to weigh the
Evaluating Tradeoffs      relative merits of divesting in major discharger enforcement in order to more
Not in Place              heavily invest enforcement resources in minor dischargers, agricultural
                          feeding operations, storm water dischargers, industrial sectors, or
                          watersheds. Although the Office of Enforcement and Compliance
                          Assurance’s program guidance allowed states to change their enforcement
                          priorities, it did not encourage divesting in major dischargers.

Best Practice: Strategy   One notable “best practice”
Evaluation Process        we found was in Region 10's                    Region 10 Best Practice:
                          process for evaluating the                   Strategy Evaluation Process
                          impacts of different state
                                                                   • Evaluated shifting resources
                          enforcement strategies. Region 10
                                                                     between monitoring different types
                          issued the Clean Water Act
                                                                     of permits.
                          discharge permits for Idaho and
                                                                   • Changed enforcement priorities.
                          Alaska.
                                                                   • Quantified improvements to water
                                                                     quality resulting from shifting
                          The Region had established a
                                                                     resources.
                          process to evaluate the
                          effectiveness of investing resources
                          in monitoring and enforcement of
                          all categories of permit holders, including minor facilities and concentrated
                          animal feeding operations.

                          As a result of its evaluation, the Region changed its enforcement priorities
                          and ultimately caused improvements in water quality. The Region moved
                          some of its resources from monitoring major dischargers to other sources,
                          such as storm water. It also created a cost-effective system to monitor
                          minor dischargers. As a result, the Region:

                              •   Realized substantial reductions of pollutant loadings.
                              •   Significantly increased compliance rates.
                              •   Provided an impetus for municipality infrastructure investments that
                                  were necessary for long-term improvements in water quality.



                                               10
State Enforcement   EPA, its regions and the states need to jointly develop priorities that address
                    each state’s risks to water quality and maximize the effectiveness of
Priorities Need
                    enforcement resources.
Development
                                                      “Section 106 grants continue to support the
                    EPA impacts state
                                                 compliance and enforcement efforts undertaken
                    enforcement priorities
                                                 at the State level to protect surface water
                    in several ways. First,
                                                 quality.”
                    EPA must approve
                                                                                           -EPA Office of Water
                    state enforcement
                    programs before they
                    can operate. EPA also
                    provides states with Clean Water Act water pollution control grants and
                    negotiates related grant agreements. For fiscal 2001, Congress
                    appropriated about $170 million for states, territories, and Indian tribes for
                    administering water pollution control programs. Further, the Office of
                    Enforcement and Compliance Assurance sets national priorities in its
                    program guidance; regions use this guidance to develop enforcement
                    priorities with states.

                    In its program guidance, the Office of
                                                                                         EPA’s Wet Weather
                    Enforcement and Compliance Assurance set
                                                                                        Enforcement Priorities
                    national priorities for enforcing “wet weather”
                    dischargers, including sewer overflows,                        •   Combined sewer
                    concentrated animal feeding operations, and                        overflow policy
                    storm water. It also identified two industrial                 •   Sanitary sewer overflow
                    sectors as priorities: petroleum refineries and                    enforcement system
                    metal electroplating.                                          •   Concentrated animal
                                                                                       feeding operations
                    The Office of Enforcement and Compliance                           sector strategy
                    Assurance consulted with states (and EPA            •              Storm water regulations
                                                                              -Fiscal 2000/2001 guidance
                    regions and Office of Water) in setting these
                    priorities. It also considered public health and
                    environmental risk as reported by states and the
                    Office of Water. As a result of its process, wet weather issues, such as
                    sewer overflows and contaminated urban and agricultural runoff, along with
                    storm water, were identified as national enforcement priorities for fiscal years
                    2000 and 2001.

                    However, these enforcement priorities did not necessarily reflect a state’s or
                    region’s watershed-specific impairment problems. For example, some
                    watersheds were impacted by surface mining. Also, wet weather priorities
                    encompassed a large universe of dischargers that could not be easily

                                             11
              addressed by states without finding new resources or divesting in other
              areas. Divesting in major dischargers was somewhat difficult because EPA
              grant work plans continued to contain requirements for inspecting major
              dischargers, a resource-intensive requirement.

              Finally, agreed-upon state enforcement priorities were not necessarily
              followed. For example, for fiscal 1999, Utah agreed that three industrial
              sectors would be given priority: refineries, mineral mining, and steel making.
              We were unable to substantiate that the state took any priority actions for
              these sectors, which included some minor permit holders. The state’s year-
              end report stated that the mineral mining and steel making sectors ended the
              year with zero and 50 percent compliance rates, respectively.



Barriers to   EPA and the states have been hampered by a number of significant barriers
              to developing and evaluating the effectiveness of enforcement strategies.
Strategy
              They include:
Development
                      •   Water Quality Data          “Only six states reported that they
                          Gaps. The General           have a majority of the data they need
                          Accounting Office’s         to assess whether their waters meet
                          (GAO) survey of all 50 water quality standards.”
                          states found that their                                    -GAO, March 2000
                          abilities to identify and
                          set priorities among water quality problems were impacted by
                          (1) a lack of water quality assessments and (2) data limitations
                          on causes and sources of water impairments. These data gaps
                          were particularly serious in the case of diffuse non-point sources,
                          which were widely accepted as contributing to the majority of
                          the nation’s water quality problems.

                      •   Incomplete Compliance Data. Due to limited resources,
                          EPA’s Permit Compliance System and state systems had
                          incomplete data on smaller dischargers, concentrated animal
                          feeding operations, and storm water dischargers. There were
                          serious data gaps on the amounts and types of pollutant
                          discharges, the number of facilities without required permits, and
                          compliance rates. These gaps hampered the development of
                          risk-based strategies. (This issue is discussed further in Chapter
                          3, page 19.)

                      •   Compliance Standards Not Established. EPA and the states
                          we reviewed had not set compliance standards for types of

                                    12
                                   dischargers, sectors, watersheds, or other specific categories.
                                   Without some standard, there was no objective basis for making
                                   decisions to invest or divest in certain sectors, areas, or
                                   programs.

                              •    Environmental Outcomes Difficult to Measure . GAO
                                   found environmental outcomes were inherently difficult to
                                   measure for a number of reasons: the absence of baseline data,
                                   the inherent difficulty and expense involved in quantifying the
                                   outcomes, and the difficulty in establishing causal links that
                                   isolate the effect of a particular strategy.

                              •    Reluctance to Address Certain Sectors . EPA enforcement
                                   officials told us some states were reluctant to address small
                                   businesses and economically vital industries.

                     We recognize these impediments impact EPA’s and the states’ abilities to
                     set priorities and improve the effectiveness of enforcement investments.
                     Nonetheless, as evidenced by the actions taken by Region 10, there is much
                     that can be done to improve the effectiveness of enforcement with some
                     relatively minor system changes and resource realignments. Further, the
                     establishment of compliance standards would greatly aid the decision-
                     making process.



State Partnerships   EPA, its regions, and states needed to
                                                            “It is of great importance to the states
                     forge strong partnerships in order to
Need                                                        and to the nation that our partnership
                     improve the effectiveness of
Strengthening                                               [with EPA] be strengthened.”
                     enforcement and help solve                              -Environmental Council of the States
                     environmental problems. State
                     enforcement priorities were sometimes
                     not made in a partnership fashion.

                     As pointed out by the National Academy of Public Administration, there are
                     many impediments to a performance-based EPA-state relationship.
                     Certainly, the lack of data is a major impediment. The Academy concluded
                     that other impediments were EPA’s state oversight role and a concern that
                     states will weaken environmental protection.

                     However, actions by Region 10 and some states show that enforcement
                     effectiveness can be greatly improved. We believe EPA-state collaboration
                     is essential to maximize the effectiveness of limited enforcement resources, to



                                             13
                   reach EPA’s goal of compliance with environmental laws, and to improve
                   our nation’s waters.



Recommendations    We recommend that the Assistant Administrator for Enforcement and
                   Compliance Assurance:

                   3- 1. In partnership with the Office of Water and EPA regions,
                         collaborate with states to develop risk-based enforcement priorities.
                         Encourage states to develop mechanisms to evaluate tradeoffs in
                         enforcement investments.

                   3- 2. Provide states more latitude in the redirection of their resources. In
                         this respect, eliminate the goal to inspect all major dischargers
                         annually.

Agency Response    2-1. Risk-Based Priorities. The Office of Enforcement and
and OIG Position   Compliance Assurance explained that it already has a consultation
                   process in place in which EPA regions, states, EPA’s Office of Water,
                   and other stakeholders are extensively consulted in determining the
                   national water enforcement priorities for each 2-year cycle. A major
                   factor in identifying the candidates for priorities is the element of risk.
                   This consultation process was being used to shape the 2002/2003
                   Memorandum of Agreement guidance. The Office believed the OIG
                   should recognize state involvement in identifying national priorities and
                   recommend that the Office of Enforcement and Compliance Assurance
                   develop a process to ensure states are implementing its risk-based
                   strategies.

                   The Office of Enforcement and Compliance Assurance asserted that its
                   actions are not keeping the states from implementing a risk-based
                   approach or from addressing watershed priorities. Its guidance and
                   strategies provide states with the flexible framework they need to
                   implement a risk-based program. While EPA regions can and do
                   recommend that states participate in national water priorities, suggest
                   where states might focus their resources, and meet with states to
                   conduct joint work planning, the Office stated that, ultimately, it is a
                   state’s decision as to the priorities it will set. The Office stated that a
                   “constructive” recommendation would be that EPA should place more
                   emphasis on program reviews and improve its efforts to share best
                   practices with the states.




                                       14
The Office disagreed with the finding that the “core” permit program
inhibits the development of state strategies. The Office’s guidance
allows regions and states flexibility in shifting a portion of their total
inspection resources from major to minor facilities, particularly in
priority watersheds, where those minor facilities represent a significant
risk. The Office also defended the Agency goal to inspect 100 percent
of all major point sources annually because:

    •   Major point sources generate the majority of effluent flow and
        toxic pollutant loadings which can significantly affect water
        quality in receiving waters.
    •   Significant environmental benefits associated with higher levels
        of compliance among majors would be lost if “we were to allow
        a total shift to minors.”

OIG Position: The Office’s response partially addresses our
recommendations. We recognize that states have been involved in setting
national priorities. We agree that EPA should evaluate state enforcement
strategies and share best practices. However, the Office of Enforcement
and Compliance Assurance needs to further collaborate with EPA’s Office
of Water, regions, and states so that each state has an effective, risk-based
enforcement strategy that addresses its unique risks to water quality.
Further, the Office should foster the development of tools that states can use
to evaluate tradeoffs in enforcement investments.

States have not been allowed total flexibility in deciding how to best invest
their enforcement resources. EPA does, to some extent, control state
enforcement programs. It authorizes states to operate these programs and
sets rules, regulations, and goals for permitting, inspecting, monitoring, and
enforcing discharge permits, especially those for major facilities. EPA state
grants were typically contingent upon work plans which required states to
perform a certain number of inspections of major and minor dischargers and
perform other actions.

2-2. Inspections. The Office of Enforcement and Compliance
Assurance believed that state programs needed to have the ability to
inspect all major dischargers annually. It cited several reasons,
including:

    •   States should have minimum, quantifiable standards for
        procedures and resources.
    •   Major dischargers were high risk because they generate the
        majority of the effluent flow and toxic pollutant loadings.

                     15
    •   Numerous noncompliance problems existed with major
        dischargers.

The Office of Enforcement and Compliance Assurance also pointed out
that it has issued guidance that allows minor facility inspections to be
traded for major facilities at a 2:1 ratio, using risk-based rationale.
The Office believed an appropriate alternative recommendation would
be to ensure that any state that does not commit to inspect 100 percent
of its major facilities develops and implements an inspection plan that
targets an appropriate mixture of high risk dischargers (i.e., majors
and minors) in priority areas such as impaired watersheds.

OIG Position: The Office of Enforcement and Compliance Assurance’s
response illustrates its reluctance to commit to a risk-based approach. We
believe it is the impact state resources have on compliance and, ultimately,
water quality, that should be used to determine the adequacy of a state’s
resource investment in major inspections and other activities.




                    16
               Part III
Compliance Monitoring and Enforcement
          Systems Deficient

          The states we evaluated did not have sufficient information on dischargers to
          effectively implement their enforcement programs. One reason was that EPA’s
          Permit Compliance System was incomplete, inaccurate and obsolete. The
          growth, variety and complexity of the regulated community had greatly
          outstripped the system capabilities. Compliance data for hundreds of
          thousands of dischargers were not monitored by the system because it was too
          costly to enter the data. Although many states were developing their own
          systems, they did not fill the information void.

          States had other weaknesses in their compliance monitoring and enforcement
          systems, including not reporting serious, significant violations. The states we
          evaluated had not implemented effective storm water compliance monitoring
          programs to detect
                                               Percentage of Major Dischargers
          and correct
                                                           In Compliance
          noncompliance in                                      Fiscal 2000
          higher risk areas.

          Moreover, states
          needed to improve
          their enforcement
          response to
          significant violations
          to prevent further
          violations. Although
          EPA’s goal was full            Source: Permit Compliance System
                                                                          90-100% compliance
          compliance, only 10                                             75-89% compliance
          states reported a                                               0-74% compliance
          compliance rate of
          90 percent or better during fiscal 2000. Twenty states reported that less than
          75 percent of their major dischargers were in compliance during the year. A
          discharger was defined as out of compliance with its permit when it had two
          significant, repeated violations of its permit within two consecutive quarters.

          We recognize the compliance rate was not completely accurate because of
          deficiencies in EPA’s Permit Compliance System. However, it provided an

                                  17
indicator of the states’ compliance status. National compliance rates were not
available for other sources such as minor facilities and storm water dischargers.
As detailed later in this section, EPA and the states estimated a very large
number of storm water dischargers were not in compliance because they had
not obtained permits.




                       18
                                         Chapter 3
         Permit and Other Information Systems Inadequate

                        The states we evaluated did not have sufficient information on regulated
                        dischargers to determine the effectiveness of their enforcement programs.

                        A major barrier in state program management was the lack of information about
                        hundreds of thousands of smaller dischargers that contributed to water quality
 Without electronic     problems. EPA’s Permit Compliance System—its national permitting and
 reporting by           enforcement system—was incomplete, inaccurate and obsolete. The system
 dischargers, it will   lacked data from these smaller dischargers. Although many states were
 be virtually           developing their own systems, they did not fill the information void. As a result,
 impossible for         states could not effectively implement the discharge program.
 states to monitor
 compliance with        One critical missing component of the Permit Compliance System was
 permits.               electronic transmission of self-monitoring reports. Without electronic reporting
                        by dischargers, it will be virtually impossible for states to monitor compliance
                        with all permits.

                        Further, serious toxicity violations were not classified as “significant,” thereby
                        overstating the national compliance rate. The states we evaluated had other
                        weaknesses in their procedures for identifying significant violations.

                        Without sound compliance monitoring systems, significant permit violations that
                        adversely impact water quality went uncorrected. At two of the three states,
                        toxic discharges were released into impaired water bodies.


                                                                             EPA’s Permit Compliance
                        EPA’s permitting and enforcement information
Permit Compliance                                                                   System Data
                        system— the Permit Compliance
System Had                                                                  • Pollutant discharges
                        System—was incomplete, inaccurate and
Serious Problems                                                            • Permit limits
                        difficult to use. Compliance data from
                                                                            • Permit violations
                        hundreds of thousands of smaller dischargers
                                                                            • Enforcement actions
                        was not captured by the system and
                        information in the system had serious
                        limitations. Some states had created their own
                        systems and, to some extent, duplicated the Agency’s system. EPA was aware
                        of these problems and, in 1999, identified the system as an Agency weakness.
                        Until the system is upgraded, expanded, and reasonably accurate, its usefulness
                        as a management and program evaluation tool will be seriously limited. As



                                                19
                      such, the system should continue to be reported as an Agency weakness until
                      these problems are corrected.

                      EPA and state permitting and enforcement
                      programs rely on EPA’s compliance system; of      State Enforcement
                      the 44 states approved to issue permits, 39      Program Deficiencies
                      states enter data into the system. EPA uses the • Compliance system
                      system for program management and oversight       excluded data for smaller
                      purposes, including assisting in targeting        dischargers
                      enforcement activity to the areas experiencing  • Serious toxicity violations
                      compliance and environmental problems. The        and other violations not
                      data are analyzed to help determine the quality ofreported
                      the nation’s water bodies and will serve as the • Strategies for identifying
                      source of data for reporting purposes on EPA’s    unpermitted storm water
                      progress in reducing pollutant loadings.          dischargers needed
                                                                        development
System Capabilities   The growth, variety, and complexity of the      • Many enforcement
Exclude Many          regulated community had greatly outstripped the   actions issued a year or
Dischargers           system’s capabilities. Dischargers not            more after violations
                      monitored by the system included:               • Penalties failed to
                                                                        recover economic benefit
                          • Storm water,                                of noncompliance
                          • Concentrated animal feeding operations, • Proactive strategies
                              and                                       needed to avoid serious
                          • Sewer overflows.                            violations

•   Permits Have      The system was not designed for these type of
    Different         permits, which had different permit requirements than the more traditional major
    Requirements      and minor discharger permits. Generally, states were not entering discharge
                      information on minor and storm water dischargers, concentrated animal feeding
                      operations, and sewer overflows because EPA did not require it.

                      The lack of a sound
                                                              Number of Permits in EPA’s
                      monitoring system was
                                                              Permit Compliance System
                      particularly evident for
                      storm water dischargers.                               Estimated
                                                                             Number of      Number in
                      The system was not                 Type of Permit       Permits        System
                      designed to track storm
                      water compliance data,         Storm water                  400,000        16,417

                      and states did not maintain    Concentrated animal           15,000         5,608
                      their own complete and         feeding operations




                                             20
                        consistent data systems
                        for tracking and monitoring storm water compliance activities.

•   Thousands of        Another reason data was excluded for smaller permits was because data entry
    Permits Need Data   was time-consuming. The Office of Water estimated there were about
    Entry               400,000 storm water and 100,000 minor discharger permits. Compared to
                        7,000 major discharger permits, these permits represented a substantial
                        workload. As such, EPA and the states had agreed that data only for major
                        dischargers was required to be in the system.

                        In order for states to effectively monitor the myriad of smaller dischargers and
                        others, electronic self-monitoring reports are critical. As noted later in this
                        report, storm water and minor permit violations went undetected and
                        uncorrected largely due to a lack of monitoring. Also, EPA had not yet been
                        successful in its efforts to introduce electronic self-reporting. To effectively
                        monitor all sources, EPA should set a high priority for implementing electronic
                        reporting for all dischargers nationwide.

Best Practice:          California was testing electronic                        Best Practice:
Electronic Reporting    submission of self-monitoring reports              Electronic Self-Reporting
                        and reported successful results. In            •   Eliminates costs associated
                        addition to providing necessary                    with preparing and reviewing
                        environmental decision-making                      paper reports
                        information, electronic self-reporting         •   Minimizes repeat data entry
                        eliminates costs associated with preparing         by EPA and the states
                        paper reports and repeat data entry by         •   Helps eliminate inaccurate
                        states and EPA. It also helps eliminate            reporting by facilities and
                        the failure of facilities and states to            states
                        accurately report and categorize               •   Facilitates the prompt review
                        violations.                                        of discharge reports
                                                                       •   Allows large volumes of
System Inaccurate for   In addition to excluding a large number of         discharge data to be
Major Dischargers       dischargers, the Permit Compliance                 included in state and national
                        System was inaccurate for a number of              data bases efficiently
                        other reasons. For example:

                        •   California Data Not Entered. Beginning in fiscal 2000, the Office of
                            Enforcement and Compliance Assurance had agreed to allow only about
                            30 percent of California’s major facility compliance data to be entered into
                            the system. These facilities represented the greatest amount of municipal
                            flow and the industries of greatest concern.




                                               21
                  •   Utah’s Noncompliance Rate Overstated. A compliance system report
                      showed that 65 percent of Utah’s major facilities were in significant
                      noncompliance for fiscal 1999. This rate was substantially overstated
                      because the state had not entered self-monitoring reports into the system on
                      time. The system did not have the capability to correct this error.

                  •   Report Unusable in Maryland. A recent Maryland state audit report
                      found the system generated many violations that did not represent actual
                      violations.

                  •   Toxicity Violations Excluded. As detailed later in this chapter, whole
                      effluent toxicity violations were not classified as significant violations and, in
                      many cases, overstated the compliance rate.

                  As shown, it was questionable whether the compliance system fairly
                  represented the compliance status of major facilities nationwide. It did not
                  reflect the national compliance rate of other facilities. Without complete and
                  accurate information, it was difficult to evaluate the effectiveness of permitting,
                  compliance, and enforcement strategies.

System Obsolete   EPA readily acknowledged its compliance system was obsolete, resource
                  intensive, and difficult to use. In spite of these factors, the system had not had
                  any major redesigns in nearly 20 years.

                  The Permit Compliance System was first developed in 1974 and its last
                  modernization effort was in 1982, nearly 20 years ago. Further, the system
                  was:

                  •   Hard to use. Due to the age and inflexibility of the system, it was not user
                      friendly. The system was dependent on user coding and some users only
                      saw the large quantity of data that was entered.

                  •   Resource Intensive. The system required the manual entry of all data
                      including facility self-monitoring reports. As a result, data entry was very
                      labor intensive.
                      For example, the                           State Data Systems
                      state of Colorado                                                   North
                      estimated the cost                               California        Carolina Utah
                      to enter data was
                                              Uses its own system          U               U
                      about $70,000
                      per year. Further, Enters data into Permit                           U       U
                      the system was          Compliance System
                      costly for EPA to                             U = Condition occurs


                                          22
                            maintain.

States Create Their     The lack of an effective compliance system resulted in the development of
Own Systems             unique state systems. Unique systems have created problems for EPA and the
                        states. Some state systems did not interface with the Permit Compliance
                        System. As a result, either states or regions had to reenter state data into the
                        Permit Compliance System. To remedy this problem of duplicate data entry,
                        EPA has proposed an Interim Data Exchange Format to overcome the data
                        transfer difficulties. However, this system has not been fielded.

                        Further, the Office of Enforcement and Compliance Assurance had not
                        addressed the risk that new state systems would not include the data elements
                        required by the modernized Permit Compliance System. To illustrate,
                        California was designing a new enforcement system to meet its own needs;
                        however, Region 9 was not involved with the development to ensure all data
                        elements needed for the new Permit Compliance System were included. In
                        order to do this, the Office of Enforcement and Compliance Assurance and
                        Office of Water need to complete the policy statement for mandatory data
                        elements.

Compliance System       The Office of Enforcement and Compliance Assurance had three major
Modernization Project   initiatives underway for its Permit Compliance System which were intended to
                        address system problems and improve its usefulness as a management tool:

                        1. System modernization,
                        2. State interim data exchange format, and
                        3. Electronic reporting.

                        In determining the status of EPA’s plan to modernize its
                                                                                        A wastewater
                        Permit Compliance System, we found that the Office of
                                                                                        treatment plant in
                        Enforcement and Compliance Assurance had not
                                                                                        North Carolina
                        successfully collaborated with EPA’s Office of Water and
                                                                                        failed 27 out of 36
                        the states in the design of the new system requirements.
                                                                                        toxicity tests since
                        This issue is discussed in more detail in Exhibit 2, Other
                                                                                        1996. None of
                        Matters, found on page 69.
                                                                                        these violations
                                                                                        were designated as
                                                                                        significant and,
                        We found other fundamental weaknesses in EPA and state
Other Aspects of                                                                        therefore, the state
                        compliance monitoring systems for major and minor
Compliance                                                                              did not include
                        facilities. Our review of three states, along with results
Systems Need            from recent state audits, found:
                                                                                        them on quarterly
Improvement                                                                             non-compliance
                                                                                        reports to EPA.


                                               23
                                •   Many serious toxicity violations were not classified as “significant” and thus
                                    were not subject to corrective or enforcement actions.
                                •   Numerous other major and minor facility violations went unreported.
                                •   State inspection procedures for major facilities needed some improvements.

                                Without sound compliance monitoring systems, significant permit violations that
                                adversely impact water quality go undetected. For example, we found serious
                                toxicity violations in two states that went uncorrected; they were not reported
                                to EPA as significant violations. In at least one case, the toxic discharge was
                                released into an impaired water body. Further, when violations are not
                                identified, enforcement actions that penalize noncompliance cannot be taken.

Serious Toxicity                Serious toxicity violations, found through whole effluent toxicity tests, were not
Violations Not                  categorized as significant violations. The states we evaluated told us they were
Identified as                   not aware toxicity test failures met EPA’s criteria for a “significant” violation.
Significant                     Also, Office of Enforcement and Compliance Assurance guidance (a 1995
                                memorandum) did not clearly identify toxicity text violations as significant
                                violations. As a result, facilities continued to discharge toxic waste water into
                                water bodies.
 “In addition, the
 [toxicity] test itself is      Whole effluent toxicity tests are one of the most important measures of
 intended to measure            assessing the impact of wastewater discharges. Toxicity tests expose aquatic
 the direct potential           organisms and fish to discharges for a specific time period, in order to predict at
 for impairment of              what levels the discharges may cause harm to the organisms. When a toxicity
 fish and aquatic life          violation occurs, it shows the discharge is toxic enough to harm or kill fish and
 communities related            organisms.
 to substances
 present in effluents           Our sample of nine facilities in California and our review of North Carolina’s
 at toxic                       data base identified three facilities in California and four facilities in North
 concentrations.                Carolina that had toxicity violations. The seven California and North Carolina
 Thus, any failure of           facilities did not categorize their toxicity violations as significant. If EPA had
 the effluent limitation        been aware of the toxicity violations, it could have worked with state officials,
 should be                      obtained enforcement orders,
 considered class I             and resolved the toxic
 [serious] and                  problems.                                                  Best Practice:
 appropriate action
                                                                              Utah’s Toxicity Violation Policy
 taken.”                        Utah did not report any toxicity          •   Violations must be reported within
       -Wisconsin Department
         of Natural Resources   violations in the sample of facilities        24 hours
                                we reviewed. Region 8 told us that        •   Accelerated testing is required
                                Utah had a policy in place to take        •   Investigation of the cause of toxicity
                                actions on whole effluent toxicity            is required for patterns of toxicity
                                test violations.



                                                        24
                      There was a large number of toxic violations nationwide that went unreported
                      as significant violations. EPA’s Permit Compliance System reported 6,552
                      toxicity violations nationwide between October 1, 1998 and December 31,
                      1999. We estimate that less than 10 percent of these violations were
                      designated as significant and, thus, were not subject to the requirements for
                      taking enforcement actions.

                      Although EPA guidance categorized effluent violations that may cause
                      environmental harm as significant, it did not specifically designate whole effluent
                      toxicity violations as significant. EPA officials told us this stemmed from
                      industry opposition years earlier based on concerns over the reliability of
                      toxicity tests. However, EPA officials confirmed that toxicity tests were very
                      reliable. Also, they noted that toxicity tests allowed dischargers to eliminate
                      other tests of specific chemicals. As such, EPA needs to require dischargers to
                      categorize toxicity test failures as significant violations.

Violations by Major   Significant
Dischargers Not       violations by major
Identified            dischargers were
                      not always
                      identified and
                      reported. In
                      California, the
                      state’s manual
                      reviews of
                      monitoring reports
                      missed significant
                      violations at three
                      of the nine facilities         Refinery in Northern California, a major discharger
                      we reviewed. As
                      a result, none of these violations were identified and reported. Many of these
                      problems could be eliminated by having dischargers submit monitoring reports
                      electronically.

                      A 1999 California study also found          Because it did not identify daily and weekly
                      that violations were not identified         violations, North Carolina delayed 15
                      and reported. The study found               months in issuing an enforcement action
                      many self-monitoring reports were           for mercury violations. The violator, a
                      not received, and many that were            town’s waste water treatment plant, was the
                      received were not reviewed in               cause of pollution of an environmentally-
                      sufficient detail to identify violations.   impaired stream with designated poor
                                                                  water quality, non-supporting of its intended
                                                                  uses.


                                               25
                         In North Carolina, permits contained daily or weekly limits which were
                         sometimes violated but not identified or reported. In at least one case we
                         reviewed, the violations of mercury limits were directly attributable to impairing
                         a stream. As a result of our audit, North Carolina developed a separate
                         software system to detect violations of daily maximum limits in permits.

                         State audit reports identified problems with the accurate identification of
                         violations. For example, Arkansas’s Legislative Auditor found discrepancies
                         between the violations reported on the self-monitoring reports and those
                         reported on in-house summary reports.

Significant Violations   Significant violations were not identified for minor facilities. There were two
Not Identified for       main reasons for this condition:
Minor Facilities
                         •   States were not tracking compliance at minor facilities and entering
                             information into EPA’s system.
                         •   EPA had not explicitly defined a “significant” violation for minor
                             dischargers.

                         Minor dischargers have been                         Region 10 Best Practice
                         implicated as causes of water                  Minor Permit Compliance System
                         impairments in some water bodies.              • Created oversight system for
                         A recent Region 10 initiative to monitor         minor facility dischargers
                         compliance at minor facilities found high      • Identified violations with minimal
                         noncompliance rates. After the region            effort
                         developed an oversight system and              • Identified when an enforcement
                         began enforcing permit limits, pollutant         action should be taken
                         discharges dropped dramatically.

                         EPA’s Permit Compliance System identifies violations based on data entered
                         from permits and discharger self-monitoring reports. As discussed previously,
                         generally states only enter data for major facilities. Even this limited data entry
                         process is time-consuming and expensive; however, the system calculates
                         discharge violations.

                         Generally, states were not reporting information on minor facility compliance to
                         EPA. Although North Carolina was reviewing minor facility violations, we
                         found:

                         •   Data Not Entered into EPA System. None of the three states we
                             evaluated were consistently entering minor facility data into the Agency’s
                             compliance system. Thus, minor discharger violations weren’t reported to
                             EPA.

                                                 26
                       •   Annual Reports Missing. Many states did not submit annual reports
                           describing compliance and enforcement activities at minor facilities, as
                           required by federal regulation. None of the states we reviewed submitted
                           this report and only two of the ten states in Regions 8 and 9 submitted this
                           report.

                       •   States Were Not Evaluating Compliance. Two of the three states we
                           evaluated did not have a state system for evaluating minor facility
                           compliance.

                       •   Conditions Noted in Other Reports. These conditions were noted in
                           state audit reports. For example, Louisiana auditors found 21 percent of
                           the required self-monitoring reports for minor facilities in their sample had
                           not been submitted. Also, the state was not reviewing the monitoring
                           reports that were submitted.

                       Without these annual reports on the compliance status of minor dischargers,
                       EPA was unaware of compliance problems and was unable to take unilateral
                       action or assist the states in helping permit-violating facilities come back into
                       compliance.

                       Further, EPA had not established criteria for significant violations at minor
                       facilities or significant minor facilities. EPA guidance stated that the inventory
                       data for “significant minors” should be entered directly into the Permit
                       Compliance System, but significant minors was not defined. At a minimum,
                       minors that adversely impact impaired watersheds should be identified as
                       significant. Also, nonsubmission of discharge monitoring reports should be
                       identified as a significant violation. If this criteria were established, states,
                       regions and EPA would have better data to evaluate compliance by minor
                       facilities.

Inspections of Major   States needed to improve the quality of their
Facilities Need        inspections to ensure facilities were accurately          Changes Needed to State
Improvements           reporting monitoring data. Self-monitoring reports         Inspection Procedures
                       are the backbone of the Clean Water Act’s                 • Inspections need to be
                       compliance monitoring system; major facilities              unannounced
                       must submit them monthly. States rely on facilities       • Inspections need to
                       to promptly and accurately report their violations          evaluate the accuracy
                       to regulators. Facilities are required to report            and reliability of self-
                       significant violations to states within 24 hours.           monitoring reports




                                               27
                            Two of the three states we reviewed needed to
 California performed       improve their inspection procedures. For the sites we reviewed, neither
 cursory inspections of a   California nor Utah performed unannounced inspections and California did not
 sugar refinery, missing    uniformly verify the accuracy and reliability of self-monitoring reports during site
 violations of chlorine     visits. As a result, California missed unreported significant violations by at least
 limits. When the state     one facility. This facility discharged chlorine into an impaired waterway.
 analyzed reporting
 documentation in           Other reports found inspection quality issues in state
 August 1999, it found      programs. For example, the Environmental Working Group
 several years of           reported in July 2000 that 42 percent of all Clean Water Act
 unreported violations of   inspections were a brief visual inspection of a facility. Visual
 chlorine limits. The       inspections typically do not evaluate the accuracy of self-monitoring reports.
 chlorine was discharged    Although most state audit reports did not
 into an impaired           evaluate the quality of inspections, a recent
 waterway.                  Oregon audit report found that the Department
                                                                                   Oregon Department of
                            of Environmental Quality was not ensuring self-
                                                                                   Environmental Quality
                            monitoring reports were accurate.
                                                                                  “...was unaware of
                                                                                  numerous instances of
                            In California, inspections were not thorough
                                                                                  falsified reporting
                            because inspections were deemed lower
                                                                                  occurring over a 5-year
                            priority than issuing permits and taking
                                                                                  period at one permitted
                            enforcement actions. The goal of inspecting all
                                                                                  facility...”
                            major facilities annually took precedence over                -Oregon Audits Division
                            a thorough inspection. States did not perform
                            unannounced inspections because staff were
                            concerned no one would be available at the
                            facility and time would be wasted.


                            EPA’s Permit Compliance System was obsolete and insufficient to evaluate the
Conclusion
                            effectiveness of state enforcement programs. The system lacked data from
                            thousands of smaller dischargers. Although many states were developing their
                            own systems, these systems did not fill the information void.

                            One critical missing component of the Permit Compliance System was
                            electronic transmission of self-monitoring reports. Without electronic reporting
                            by dischargers, it will be virtually impossible for states to monitor compliance
                            with all permits.

                            We also found many states were not classifying thousands of serious toxicity
                            violations as “significant.” Without this designation, states were not subject to
                            EPA requirements for taking enforcement and corrective actions. Moreover, in
                            some states, toxic effluent continued to be discharged into impaired waterways.

                                                   28
                  Other aspects of discharge compliance were not being addressed by states.
                  Two of the three states we reviewed were not evaluating compliance by minor
                  dischargers. We also found procedures for conducting inspections and
                  reviewing self-monitoring data was insufficient at two states. Since self-
                  monitoring reports are the cornerstone of the discharge system, these
                  procedural weaknesses are serious.



Recommendations   We recommend that the Assistant Administrator for Enforcement and
                  Compliance Assurance:

                  3- 1. Make modernizing the Permit Compliance System a high priority.
                        Further, ensure that future systems:
                        • Require electronic submission and evaluation of self-monitoring
                            reports for all dischargers, including minor facilities and storm water.
                        • Track storm water permits, inspections, compliance rates, and
                            enforcement actions.

                  3- 2. Accelerate the development of the Interim Data Exchange Format for
                        the Permit Compliance System. Also, before proceeding further into
                        design and development, work with the Office of Water to ensure there
                        is an up-to-date policy statement for water system criteria.

                  3- 3. Have regions work with states to help ensure data elements needed for
                        the new Permit Compliance System are included in state systems being
                        developed.

                  3- 4. Continue to report the Permit Compliance System as an Agency-level
                        weakness until the modernization project is implemented and the system
                        data is reasonably accurate and complete.

                  3- 5. Revise guidance to specify that whole effluent toxicity violations are
                        significant violations. Revise regulations to require whole effluent toxicity
                        violations to be reported on quarterly noncompliance reports.

                  3- 6. Establish a definition of significant violations for minor facilities, including
                        storm water dischargers. At a minimum, include nonsubmission of self-
                        monitoring reports in this definition. Also, define “significant” minor
                        facilities. Include facilities impacting impaired waterways in this
                        definition.

                  Additional suggestions for modernizing the Permit Compliance System can be
                  found at Exhibit 2, page 69.

                                          29
Agency Response     3-1. System Modernization. The Office of Enforcement and Compliance
and OIG Position   Assurance stated that modernizing the Permit Compliance System was,
                   and will continue to be, a high priority. The modernized system will allow
                   for entry of data element fields needed to track all dischargers, including
                   minor facilities and storm water facilities. Information tracked for those
                   dischargers will include permit limits, inspections, compliance and
                   enforcement action data. System modernization is scheduled for
                   implementation by the end of 2003.

                   OIG Position: While the Office asserted that the Permit Compliance System
                   was a high priority, the system has been obsolete for over 10 years and the new
                   system schedule has continually slipped. Further, the Office has not yet
                   identified the data elements the system will include. These facts indicate that the
                   system has not been a high priority.

                   3-2. State Data Transfer System. The Office of Enforcement and
                   Compliance Assurance said it and the EPA Office of Environmental
                   Information had worked closely with their state partners in implementing
                   the Interim Data Exchange Format over the last year.

                   The EPA Office of Environmental Information is the lead for
                   implementing the Exchange Format project, has developed the schedule
                   for project implementation, and must address acceleration. Currently, the
                   Exchange Format is scheduled for full implementation by March 2002.

                   While Office of Enforcement and Compliance Assurance agreed that there
                   was a need to update the Policy Statement to address new data
                   requirements, it did not agree that this must occur before design and
                   software development. Broad capacity will be built into the system as
                   indicated in the response to 3-1. Only a subset of that capacity is likely to
                   be federally required. Therefore, the Policy Statement can be updated
                   during system design and development.

                   OIG Position: The Agency’s response does not fully address our conclusions
                   and recommendations. According to the Office of Enforcement and
                   Compliance Assurance’s Fiscal 2000 Integrity Act Annual Assurance Letter,
                   the Exchange Format was scheduled to be implemented in the third quarter of
                   fiscal 2001. Thus, the Exchange Format system has been delayed nearly a year
                   since the letter was prepared in October 2000. Further, the Office needs to
                   work with the Office of Environmental Information to accelerate the Exchange



                                          30
Format system, since the Office of Enforcement and Compliance Assurance is
responsible for the system.

The Policy Statement is obsolete and needs to be updated immediately. This
critical Agency document excludes federal information requirements for storm
water permits, which now compromise the largest number of permits. Further,
changes to the Policy Statement should be completed before software design,
so that the changes can be incorporated into the modernized system. Data
entry requirements are essential for determining system requirements.

3-3. State Systems. The Office of Enforcement and Compliance
Assurance explained that it was finalizing the overall data requirements
for the modernized Permit Compliance System. It stated it will continue
to work closely with the states in developing detailed data requirements.
Until those requirements are finalized, those states modernizing their
systems should include in their modernized system the data entry
requirements specified in the current Policy Statement.

For the most part, states do not coordinate or consult with the Office of
Enforcement and Compliance Assurance when modernizing their systems,
as these systems are built primarily to accommodate state needs.
However, the Office agreed to request of regions that they make a special
effort to discuss state modernization plans during their program status
meetings. Additionally, it hoped that extensive involvement of state
representatives in the modernization process will have a spill over effect in
getting states to include the necessary data elements in their systems.

OIG Position: We do not agree an updated policy statement is unnecessary at
this time. EPA regions need an updated policy statement to engage in
constructive discussions with states about which state data is needed at the
national level. Existing data requirements are insufficient.

3-4. Agency Control Weakness. The Office of Enforcement and
Compliance Assurance agreed to continue to report the Permit
Compliance System as an Agency-level weakness until all milestones were
met. One of the milestones was the completion of modernization which is
scheduled to occur by the end of 2003.

OIG Position: The response only partially addresses our recommendation.
The system should continue to be reported as an Agency weakness until the
data is reasonably accurate and complete.




                     31
3-5. Toxicity Violations. The Office of Enforcement and Compliance
Assurance pointed out that, in many ways, whole effluent toxicity is
treated like any other parameter in the permit program; i.e., the permittee
reports self-monitoring data on its discharge report, results are entered
into the permit compliance system and tracked, and violations should be
reviewed and are subject to a range of enforcement responses. The major
exception is that toxicity violations are not automatically flagged as
significant noncompliance. Because of the variability in permit
requirements and in the frequency of compliance monitoring required,
toxicity violations do not neatly fit under existing “significant
noncompliance” criteria.

However, EPA’s existing regulations and guidance provide EPA regions
and states with the flexibility to identify toxicity violations as significant:
•    40 CFR Part 123.45(a) provides states with the flexibility to report
     any violation of substantial concern on quarterly noncompliance
     reports.
•    EPA’s “Whole Effluent Toxicity Permitting Principles and
     Enforcement Strategy” prescribes review of toxicity limit violations.
•    EPA’s enforcement response guide recommends responses to toxicity
     violations.
The Office of Enforcement and Compliance Assurance agreed to
reconsider the applicability of significant noncompliance to whole effluent
toxicity violations when it revises the definition of significant
noncompliance.

OIG Position: There is no reason to delay categorizing whole effluent toxicity
violations as significant violations. The current process is not working. While
states have had the flexibility to identify whole effluent toxicity violations as
“significant” violations, they generally have not. According to the Permit
Compliance System, only 5.6 percent of the fiscal 2000 toxicity violations were
identified as significant violations. Facilities nationwide had large numbers of
recurring toxicity violations that were not designated as significant. For
example:
      • One facility in Massachusetts had 16 toxicity violations; none were
        categorized as significant.
      • One facility in New Jersey had nine toxicity violations; none were
        categorized as significant.
      • One facility in Florida had 19 toxicity violations; none were labeled as
        significant.
By not labeling toxic violations as “significant,” states obfuscate EPA oversight
of the appropriateness and effectiveness of state enforcement actions.



                       32
3-6. Other Significant Violations. The Office of Enforcement and
Compliance Assurance noted that a state has the discretion to designate
any facility with violations of concern as a “major” discharger thereby
subjecting the facility to “significant” noncompliance criteria. 40 CFR
Part 123.45(a) provides a state with the discretion to report any violation
of “substantial concern” on a quarterly noncompliance report.

The Office of Enforcement and Compliance Assurance committed to
consider developing guidance on when a minor discharger should be
designated as a major discharger and to include factors such as non-
submission of discharge monitoring reports and impact of the discharge
on impaired waterways.

OIG Position: The Office’s response does not address our recommendation
to establish a definition of significant violations for minor facilities, including
storm water dischargers, and to define “significant” minor facilities. We are
recommending that EPA establish a uniform definition for significant violations at
all minor dischargers, including storm water. Designating minor dischargers as
major dischargers does not address our recommendation or the problems that
exist.




                       33
34
                                                  Chapter 4
      Storm Water Compliance Systems Have Deficiencies

                               Storm water pollution posed significant water quality problems and health
“Urban runoff from seven       risks—in 1999, more than 6,000 beaches were closed or had health advisories
south Orange County            issued due to polluted waters caused mainly by storm water runoff.
[California] cities is so
noxious that it exceeds        The states we evaluated were not effectively monitoring compliance by storm
safe-swimming water            water dischargers, resulting in violations going undetected and unaddressed. We
standards at all but three     found:
of 35 sites–and by 100-
fold at four...”               •   State strategies were needed for               California estimated there could be
     -Orange County Register       identifying storm water non-filers.            as many as 19,000 facilities
                                   States estimated thousands of facilities       operating without proper storm
                                   had not obtained storm water permits.          water permits.
                               •   Risk-based inspection programs
                                   were lacking. The thousands of
                                   relatively small dischargers in this
                                   program dictated a risk-based approach that had not been well developed.
                               •   Processes were needed to monitor discharge reports. States did not
                                   maintain adequate processes or systems for reviewing self-monitoring
                                   reports, identifying major violations, and taking appropriate action.
                               •   Tracking systems for citizen complaints were insufficient. Although
                                   citizen complaints were a primary means of identifying violations, complaint
                                   tracking systems were not implemented.

                               The main impediments to effective storm water monitoring systems were a lack
                               of resources and information. Although the storm water program involved nearly
                               400,000 dischargers nationwide, state resources were not significantly increased
                               to implement this program. Further, EPA’s Permit Compliance System and
                               state systems did not track storm water permit compliance data, resulting in
                               significant data gaps. As a result, the states we reviewed did not have effective
                               storm water compliance monitoring programs to detect and correct
                               noncompliance in higher risk areas.


                               The states we evaluated did not have adequate strategies for identifying storm
Numerous Storm
                               water dischargers that had failed to file for a proper permit. Although some
Water Non-filers               “non-filers” were identified through citizen complaints, states did not have
                               systematic processes to search for and identify non-filers because of inadequate
                               resources and data.

                                                        35
                         The number of unpermitted dischargers was substantial. For example, Utah
                         estimated it had about 500 unpermitted facilities subject to storm water
                         regulations. California estimated that at least 19,000 facilities might be subject to
                         storm water regulations, but had yet to apply for a permit. Because the
                         identification of non-filers continued to be a challenge in the state, the state was
                         investigating the feasibility of accessing other state agency databases to assist in
                         identifying non-filers.



Inadequate               The states we evaluated were not employing sound, risk-based inspection
                         programs of storm water dischargers:
Inspection
Programs                                             Storm Water Inspection Programs
                                                                  California
                                                                (Los Angeles)     Utah       North Carolina

                          Number of permitted facilities           16,641          690             6,227
                                                                   (3,304)

                          Estimated annual rate of                                          Construction-100%;
                          facilities inspected                     12 %           2 %*       others unknown

                          Risk-based inspection
                          schedule developed                         No            No               No

                          Inspections documented                    Yes         Sometimes          Yes

                          Inspection results tracked and                                       No, except
                          violations followed up                     No            No        construction sites
                         * Number of inspections performed could not be substantiated.


Inspection Statistics    State-reported inspection statistics were generally overstated or unsubstantiated
Unreliable               at the states we reviewed. For example, California’s Los Angeles region
                         included searches for non-filers in its tally. Fortunately, the Los Angeles region
                         had recently increased its inspection field presence from previous years. Utah’s
                         reported inspections could not be fully substantiated; the state did not
                         consistently document or track inspection results.

                         Although most state audit reports did not evaluate storm water inspections, the
                         Louisiana Legislative Auditor reported in January 2001 that most of the
                         uninspected facilities were storm water dischargers.

States Need Strategies   We recognize that it is not realistic to inspect hundreds or thousands of storm
                         water dischargers every year with limited resources. Therefore, states should
                         develop risk-based strategies to target inspections that provide maximum benefit
                         to improving total water quality.


                                                           36
Best Practice: Risk-    California was developing a risk-
Based Inspection        based inspection plan: the Los                    California Best Practice:
Strategy                Angeles region’s work plan for                  Risk-Based Inspection Plan
                        fiscal year 2000/2001 showed that          • Focuses limited resources on
                        it intended to start targeting               highest risk dischargers
                        industrial and construction                • Uses criteria to identify highest risk
                        inspections at the highest risk              dischargers
                        dischargers using specific criteria,
                        such as administrative or technical
                        non-compliance, high-risk industries, large construction sites, and complaints.
                        Other criteria states could use to focus inspection resources are impaired waters
                        or high priority watersheds, and repeat violators.

States Need to Follow   The states we evaluated were not consistently tracking or following up on
Up on Inspection        inspection results. Four of eleven inspection
Results                 reports reviewed in California and Utah detected “The heart of a general
                        violations that were not tracked or acted upon.      permit is the pollution
                        Therefore, facilities with major violations, such as prevention plan...”
                        failure to prepare a storm water pollution                              - EPA Region 9
                        prevention plan or implement storm water best
                        management practices, did not come into
                        compliance promptly, if at all. And there was no evidence to determine if or
                        when compliance was achieved.


                        The states we evaluated were not reviewing self-monitoring
Self-Monitoring
                        reports for compliance with permits and
System Not              regulations. In California, one of four
Identifying Major       monitoring reports we reviewed did not            Significant Storm Water
Violations              meet regulatory requirements. The Los           Violations Found: California
                        Angeles region acknowledged that in the      • Missing sampling analysis
                        past they have had to focus limited             during the required test period
                        resources on requiring dischargers to        •  Missing descriptions of best
                        submit reports, as opposed to addressing        management practices
                        noncompliance items in reports.                 implemented at the facility
                                                                     • Reporting results which were not
                        Utah did not track which facilities were        based on storm events
                        required to submit self-monitoring           • Not submitting monitoring
                        reports; thus, the state could not ensure       reports
                        all required reports were received.




                                                 37
                   EPA and state systems did
                   not facilitate a review of self-
                   monitoring reports. The
                   Permit Compliance System
                   was not designed to track
                   storm water compliance
                   data. State data systems did
                   not fill this gap, either.
                   However, storm water data
                   was critical, not only for
                   determining compliance, but
                   for evaluating the                       Control of sediment into storm drain
                   effectiveness of the storm
                   water program.

                   Due to the large volume of storm water self-monitoring reports, states need an
                   electronic scoring process that cost-effectively identifies significant violations and
                   other important information. Several low-cost viable options need to be seriously
                   considered including scan sheets (commonly used for electronic scoring of tests)
                   and web-based reporting. This would make efficient use of limited resources, as
                   well as provide assurance that required reports are submitted and
                   noncompliance is detected.



Complaint          The states we reviewed did not maintain
                   adequate or consistent tracking systems
Tracking Systems
                   for citizen complaints. Complaints were
Lacking            an important source of violation
                   information. Without consistently tracking
                   when and how citizen complaints were
                   resolved, there was no evidence that the
                   states addressed the complaints or
                   provided a formal or informal response
                   addressing citizen concerns.



Barriers           Deficiencies in the state storm water
                   programs occurred primarily because of
                   incomplete and inconsistent data systems
                   for tracking storm water activities and
                   inadequate resources. Also, states were
                   reluctant to place additional burdens on         Fed by urban runoff, Munger Creek in
                   small and economically vital business.           Orange County, California, had an
                                                                    increased fecal-coliform count. (Photo by
                                                                    Orange County Register.)
                                             38
Inadequate Data                 As previously discussed in Chapter 3, one major impediment to storm water
Systems                         self-monitoring systems was data systems. Storm water data was critical, not
                                only for determining compliance, but for evaluating the effectiveness of the storm
                                water program. We found EPA’s Permit Compliance System:

                                •   Included only about 16,500 of an estimated 400,000 storm water permits.
                                •   Did not require states to enter storm water permit data. This was due to
                                    concerns over the increased state and federal data entry workload.
                                •   Was not designed to track storm water compliance data.

                                State data systems did not fill this gap, either. The states we evaluated did not
                                maintain their own complete and consistent data systems for tracking and
                                monitoring storm water compliance activities. All three state data systems were
                                not tracking one or more pieces of critical storm water data.

                                For example, Utah did not track critical compliance data and could not support
                                an internal report citing 100 percent compliance. Utah also did not maintain an
                                information system on its current construction site permits. Our sample included
                                an instance where a construction facility was operating with an expired permit
                                until a complaint was lodged.

Inadequate Resources            The promulgation of the Phase I storm water regulations in November 1990
                                substantially increased the universe of permit holders under the Clean Water
                                Act. Implementation of the Phase II regulations beginning in 2000 further
                                increases the universe. However, minimum resources have been dedicated to
                                carry out storm water activities. In addition, permit fees were generally
                                inadequate to help fund storm water programs.
                                                                        Staff Years Dedicated to Storm Water
                                For example, at the time
                                                                                      Fiscal 1999
                                of our audit, California’s
                                Los Angeles region only                                       Storm Water   Staff
                                had 2.5 staff years to                        State             Permits    Years

 “...the Los Angeles            monitor more than 3,300
                                                                   California
 Regional Board                 storm water permit
                                                                   (Los Angeles Region)          3,304       2.5
 inexplicably devotes           holders and conduct
 the least amount of            searches for as many as            North Carolina                6,227        7
 resources to its worst         10,000 unpermitted
                                                                   Utah                           690        1+
 water quality problem:         facilities that were subject
 polluted runoff.”              to regulation. The
          - Natural Resources   program was grossly underfunded and as a result, was identified as not meeting
             Defense Council    federal standards for controlling pollution caused by storm water runoff. This
                                was a serious concern because storm water runoff was the largest single source


                                                        39
                        of water pollution in this region. To help address this concern, the Los Angeles
                        region requested and received a substantial increase in its 2000/2001 storm
                        water budget, which enabled it to hire additional storm water staff.

Risk-Based Strategies   Because of limited resources and the large number of storm water dischargers,
                        states should engage in risk-based strategies to focus their resources on the most
                        significant water quality issues. Urban runoff, including storm sewers, is one of
                        the top three sources of pollutants in rivers, lakes, and estuaries. Storm water
                        dischargers now make up about 75 percent of the number of discharge permits.
                        However, as further discussed in Chapter 2, state water programs have
                        generally given higher priority to major “point source” dischargers, such as
                        municipal waste water treatment plants and industrial facilities.
                                                                  Storm Water Enforcement Actions
                                                                             Fiscal Year 1999
States Taking           The three states in our review                           Number of
Enforcement             took some substantial storm                             Enforcement
                        water enforcement actions. The                            Actions          Penalties
Actions
                        three states assessed penalties    California (Los
                        of over $500,000. North            Angeles Region)           28            $256,100
                        Carolina took one enforcement
                                                           North Carolina            12            $248,741
                        action for $50,975.
                                                           Utah                       2            $ 86,609


Recommendations         We recommend that the Assistant Administrator for Enforcement and
                        Compliance Assurance:

                        4-1. Work with EPA regions in assisting states to:
                             • Develop mechanisms to better balance their limited resources between
                               all categories of dischargers, as indicated by the states’ analysis of risks
                               to water quality.
                             • Create effective strategies for identifying storm water non-filers.
                             • Develop sound storm water inspection programs which include risk-
                               based inspection schedules and tracking and follow-up of inspection
                               results.
                             • Establish tracking systems for citizen complaints.

                        4-2. Facilitate the development of a system which allows self-monitoring
                             reports to be electronically scored for compliance. Consider low-cost
                             options such as scan sheets (commonly used for electronic scoring of
                             tests) and web-based reporting.




                                                40
Agency Response    4-1. State Strategies and Systems. The Office of Enforcement and
and OIG Position   Compliance Assurance agreed to continue to work with the EPA regions
                   and states to implement risk-based approaches to water enforcement. It
                   noted that the Office’s Memorandum guidance and national strategies
                   provide flexibility to address majors as well as minors. The 2000 Storm
                   Water Enforcement Strategy outlines a recommended “sweep” approach
                   of targeting a priority watershed or geographic area, then focusing storm
                   water inspections and enforcement actions on a category of non-filers (e.g.,
                   a priority industrial sector or large construction sites) in that area.

                   The Office noted that while EPA can assist the states by providing
                   direction, guidance, training, and work-sharing, states must take
                   responsibility to develop appropriate planning mechanisms to develop and
                   implement risk-based strategies (which should include a sound inspection
                   program and a system to track citizen complaints), and balance their
                   limited resources.

                   OIG Position: The Office’s Memorandum Guidance does not address our
                   recommendation. While the guidance allowed “trading” major inspections for
                   minor inspections at a 2:1 ratio, the guidance did not address trading major
                   inspections for storm water inspections. Nor did it address the other aspects of
                   our recommendation. Moreover the storm water enforcement strategy was
                   developed for EPA regions, not states.

                   We agree that states are responsible for their enforcement strategies. However,
                   we do not agree there is sufficient flexibility in the existing system. EPA-driven
                   requirements for major facility inspections, oversight, and enforcement actions
                   focus state programs on major dischargers. Instead of setting rules for divesting
                   in major facility oversight, it would be more useful if EPA used its national
                   perspective and expertise to help states develop and fine-tune risk-based
                   enforcement strategies, including those for monitoring storm water permits.

                   4-2. Electronic Submission of Storm Water Reports. The current Permit
                   Compliance System already determines compliance based on electronic
                   review of the discharge monitoring reports, though some improvements are
                   needed in the system. The modernized system will certainly have this
                   capability. Additionally, the modernized system will provide the capability
                   for facilities and states to electronically report information using the
                   Agency’s Central Data Exchange portal and the National Environmental
                   Information Exchange Network for the transfer of permit data.

                   OIG Position: The Permit Compliance System does not determine compliance
                   for storm water permits because it does not have the capability to accept storm

                                           41
water compliance data. Further, for various reasons, the system does not
accept compliance data electronically. As a result, states must enter compliance
data manually. Manual data entry is a huge obstacle, especially for the hundreds
of thousands of storm water and minor permits.

One obvious solution to the data entry problem is to have permit holders submit
their reports electronically. Low-cost, common platform options are electronic
score sheets (used for testing) and web-based reporting. We have no evidence
the new system will address these issues; however, in meetings with the Office, it
indicated it would explore these options.




                        42
                                                       Chapter 5
       Enforcement Actions Late and Penalties Insufficient

                                     Although the states we evaluated generally took enforcement actions on
                                     significant violations, we found these actions were often taken a year or more
“Regulations are not self-           after the violation occurred. Further, penalties were sometimes insufficient to
implementing; they have              prevent further violations and were not always collected. This may have
impact only when                     contributed to a large number of recurring violations. Over one-third of the
regulated parties decide             states reported that over half of their major facilities with significant violations in
to comply or agencies                1999 also had recurring significant violations in fiscal 2000. (Data was not
force them to do so.”                available for non-
      -National Academy of Public    major facilities.)
                    Administration                                 Major Facilities with Recurring Violations
                                     Some states were              Facilities With Significant Violations Recurring in 2000
                                     taking actions to
                                     improve the
                                     effectiveness of their
                                     enforcement
                                     programs by:

                                     •   Requiring
                                         penalties to
                                         include recovery
                                                                                                  0-24% recurrence
                                         of the economic                                          25-49% recurrence
                                                                                                  50-100%recurrence
                                         benefit of                                    Source: Permit Compliance System
                                         noncompliance.
                                     •   Using minimum
                                         penalties.
                                     •   Publicizing violations and responses.

                                     States could further improve the effectiveness of enforcement actions by taking
                                     actions promptly and improving proactive strategies that help avoid violations.



Delayed                              The three states we evaluated were oftentimes taking a year or more to
                                     respond to significant violations at major facilities:
Enforcement
Actions




                                                              43
        Enforcement Actions Delayed Over 1 Year
                               Percentage of             Months Late
             State             Late Actions            (Violation to Action)

           California
        (San Francisco              50%                        15
           Region)

         North Carolina            100%                     26 to 41

             Utah                  100%                     12 to 41


   [We evaluated 15% and 67% of the formal enforcement actions taken
   on major dischargers in North Carolina and Utah, respectively. In
   California, we evaluated 67% of the actions on major dischargers taken
   by the San Francisco Region.]

There was evidence
this problem
extended to other
states. For
example, the
Louisiana
Legislative Auditor
found the state took
over a year to issue
nearly 40 percent of
its actions.

Not taking prompt
enforcement action
increases water                    Discharge from a Northern California facility
pollution as
violations go unchecked. States must take swift action not only to bring
violators into compliance quickly, but also to establish credible enforcement
programs. For example, a California municipality failed to meet its deadline to
replace its obsolete treatment plant by 1997. Although the state issued a cease
and desist order in 1993, at the time of our audit, no penalties were assessed.
Delays continued and the plant continued to pollute the Pacific coast until the
new plant demonstrated full compliance in January 2001.




                          44
There were a number of reasons states enforcement actions were delayed:

    •   Enforcement Process. Enforcement actions generally had to be
        approved by higher management levels and, in California, Governor-
        appointed boards. These approval processes delayed actions. Also,
        states negotiated enforcement orders or penalty amounts with
        dischargers, which was a time-consuming process. Further, in order to
        compute penalties, states needed to obtain cost data from the
        discharger, further delaying actions.

    •   Reluctance. States were reluctant to take immediate action on
        violations, especially when violators were making efforts to comply.
        Staff tended to work closely with the discharger, developing a working
        relationship they believed would be threatened by a formal enforcement
        action. Also, North Carolina and Utah negotiated formal orders or
        penalty amounts due to concerns over litigation; negotiations caused
        further time delays.

    •   Consequences. There were limited adverse consequences associated
        with delayed enforcement actions. The Office of Enforcement and
        Compliance Assurance told us that states not taking actions on repeat
        violators received phone calls from EPA; generally, EPA took no other
        actions. The most obvious adverse consequence of delay enforcement
        was the continued discharge of pollutants in excess of permit limits.
        However, this consequence usually had no immediate impact on a state.

Another factor may have been the lack of time standards for taking
enforcement actions. The states we evaluated had not set standards for taking
enforcement actions. EPA’s standard was variable and not embraced by the
states we evaluated.

EPA’s Enforcement Response Guide
                                           “The Enforcement Response
set a variable time standard for taking
                                           Guide... addresses timely
enforcement actions. It
                                           responses to... violations...Even
required a formal enforcement action
                                           though some of the language can
when there was a repeated, significant
                                           be seen as ambiguous...”
violation in the same or a consecutive
                                                         - EPA Office of Enforcement and
quarter. A state was expected to                                  Compliance Assurance
complete a formal action before the
end of the quarter following the
second violation. Thus, the timing of
the second violation determined how long a state had to take a “timely
response.” For example, if the repeat violation occurred April 1, the state had

                         45
                    6 months to complete the action; if it occurred on June 30, the state had only 3
                    months to complete the action. Three months may not be enough time to issue
                    an enforcement action. We recommend that EPA set a clear and consistent
                    time standard for taking enforcement actions.




                                               Timeline for Taking Enforcement Actions



                                       Similar
                                     Significant
                                     Violations




                                   Two or More In                             Two or More In
                                      the First               No             First and Second
                                      Quarter?                                   Quarters?


                                         Yes                                         Yes

                                        Formal                                    Formal
                                  Enforcement Action                        Enforcement Action
                                   Required by the                           Required by the
                                    End of Second                            End of the Third
                                        Quarter                                   Quarter




Penalties Did Not   Two of the three states were not calculating or                   Adverse Impacts of
                                                                                     Insufficient Penalties
                    recovering the economic benefit of
Recover Economic                                                                   • Financial gain
                    noncompliance, although both states had recently
Benefit                                                                               realized when
                    instituted changes to do so. The failure of states                economic benefit of
                    (and EPA) to recover the economic benefit of                      violation not recovered
                                                                                   • Violator implicitly
                    noncompliance has been a long-standing problem.                   rewarded for each
                    EPA oversight should continue to evaluate the                     violation
                    effectiveness of penalties, including the recovery             • Violator gains an
                    of economic benefit.                                              economic advantage
                                                                                      over compliers



                                           46
                                     Frequently, violators have economic gains from postponing compliance actions.
“EPA expects states to               These savings can come from:
make a reasonable effort to          • Delaying or avoiding purchase of equipment.
calculate economic benefit           • Delaying the construction of new facilities.
and encourages states to             • Avoiding annually recurring costs of operating and maintaining equipment
recover this amount in                  over the period of noncompliance.
negotiations and litigation.”
                                     To ensure everyone is thus treated fairly and consistently, economic benefit
   -EPA’s 1986 Oversight Framework
                                     should be recovered for all significant violations.

                                     At the time of our review, neither California nor North Carolina required or
                                     prescribed the recovery of economic benefit. Also, they had not developed
                                     procedures for calculating economic benefit:

                                                               Recovery of Economic Benefit
                                                                                         California         North Carolina      Utah

                                        State law requires recovery of                      No*                    No           No
                                        economic benefit?

                                        Policy requires recovery of                         Yes                   Yes           Yes
                                        economic benefit?

                                        Policy prescribes methods to                         No                    No           Yes
                                        compute economic benefit?

                                        Economic benefit recovered?                          No                    No           Yes
                                        *California passed a law effective January 1, 2000 requiring the recovery of economic
                                        benefit. It did not impact the actions we reviewed.


                                     Although recent state audit reports did not address recovery of economic
                                     benefit, EPA Region 9's evaluation of Nevada’s program and a 1997 Virginia
                                     audit found that these states were not recovering economic benefit.

                                     When states did not recover economic benefit, violators could realize
                                     substantial financial gains and be implicitly rewarded for noncompliance. To
                                     illustrate, a California municipality’s waste water treatment plant was not
                                     completed by the deadline required by the state’s cease-and-desist order.
                                     However, a penalty was not assessed. The municipality saved at least $1.5
                                     million by delaying construction of the $50 million plant.




                                                                   47
                     Besides the lack of a                     Reasons States Did Not Recover
                     requirement and methodology,               Economic Benefit in Penalties
                     there were other reasons states         • Lack of methodology
                     did not recover economic                • Difficult and time-consuming to obtain
                     benefit. One of the main                  cost data
                     reasons economic benefit was            • Time-consuming to compute penalties
                     not calculated was because              • Penalties generally higher; states
                     obtaining necessary cost data             reluctant to assess higher penalties
                     was cumbersome and time                 • Not required to by state law or policy
                     consuming. Minimum penalties            • Minimum penalties used instead
                     also sometimes prevented the
                     recovery of economic benefit.
                     For example, a North Carolina treatment plant was fined repeatedly for failing
                     to meet its permit limits. The state’s environmental specialist concluded paying
                     minimum penalties was less costly than complying with permit requirements.

Economic Benefit     Recently, both California and North Carolina had recognized the importance of
Recognized As        recovering economic benefit in improving compliance. California passed a law
Deterrent            requiring the recovery of economic benefit. North Carolina issued its
                     Principles of Enforcement which call for the cost of noncompliance to be
                     greater than the cost of compliance. North Carolina stated that it was
                     committed to incorporate economic benefit into penalties for serious violations
                     and chronic repeat violations.



Lack of Consistent   Penalties were not consistent nationwide or within states. In order to maintain a
                     level playing field, penalties should recoup the economic benefit the violator
Penalties
                     gained through noncompliance. As GAO concluded, a key difference among
                     state enforcement authorities is the recovery of economic benefit. Economic
                     benefit tends to be a large portion of computed penalties. When it is not
                     computed, it can lead to smaller penalties and an unfair economic advantage to
                     the violator. To make enforcement consistent nationally, economic benefit
                     should be recovered in state penalties.

                     Internal studies by California and Arkansas had found problems with the
                     consistency of penalties. In 1999, California reported that there were
                     inconsistencies in enforcement actions amongst its regional boards. In 2000,
                     Arkansas reported that “the current formal enforcement structure allows for
                     inconsistencies in the initiation of formal enforcement actions and the levying of
                     fines.”




                                            48
                    To ensure the regulated community is treated fairly, states should have uniform
                    penalty structures that have specific guidelines and equitable formulas.


                    Penalties must be collected to establish credibility. We found some penalties
Uncollected
                    for storm water permit violations were not collected in California. There was
Penalties           evidence penalty collection was problematic in other states. Louisiana’s
                    Legislative Audit report showed the state had not collected $441,188 in
                    penalties for the years 1998 and 1999. A Maryland audit found the state did
                    not assess or collect penalties of $100 per day for not meeting consent order
                    milestones. In this last case, the discharger continued to violate its permit 13
                    times between October 1997 and March 2000 without paying assessed
                    penalties.



Proactive Actions   The states we evaluated needed to
                    improve strategies to prevent violations        “If you ignore the (sewage)
Could Prevent
                    from occurring at overused facilities.          systems for 20 or 30 years, it’s
Significant         Many significant violations occurred            going to come back and haunt
Violations          because waste water treatment facilities        you.”
                    were obsolete, worn out, or exceeding                         -Orange County CoastKeeper,
                                                                                         environmental advocate
                    capacity. Further, an expanding
                    population taxed existing systems beyond
                    capacity.

                    We found states had vehicles available to address future discharges that would
                    violate permits. For example, California could issue a time schedule order for
                    threatened discharges of waste in violation of requirements.

                    We found numerous violations due to plant obsolescence and capacity limits.
                    For example:

                    •   In North Carolina, one small city’s waste water treatment plant capacity
                        had not kept pace with population growth, leading to pollution violations.
                        The treatment plant discharged pollutants into a stream which ran through a
                        residential area.

                    •   In Northern California, one small city’s population growth outstripped the
                        capacity of its sewage collection system. Sewage spills occurred because
                        the collection system lacked necessary capacity. Some of these spills
                        ended up in drinking water sources.




                                           49
                      Many of these violations could not be prevented without major capital
                      investments, including new plants, that required months or years to finance and
                      construct.

                      EPA should continue to work with states to establish proactive strategies, such
                      as time schedule orders, to hold dischargers accountable for compliance. As
                      one North Carolina official observed, when discharge rates reach 80 percent of
                      the limit, consideration should be given to expanding the plant. When
                      discharges approach 90 percent, plant expansion should have begun.


                      States had several best management practices that were effective in improving
Best Practices:
                      compliance. These practices included:
Deterring
Noncompliance         •    Minimum Penalties. Both California and
                           North Carolina had instituted minimum                Minimum Penalties:
                           penalties for certain violations. They                  Pros and Cons
                           followed the lead of New Jersey, which           + Penalties assessed for
                           reported improvements in water quality by        normally unaddressed
                           using minimum penalties for large sewage         minor violations
 Best Practices:
  Deterrence               spills and other water quality violations.
                           However, as found by North Carolina,             +Relatively quick
• Minimum penalties
                           minimum penalties may not be effective for       consequence to violations
• Publicity of
  enforcement              more severe violations if they are too low.
                                                                            +Ensures consistent,
  actions
                      •    Publicity of Enforcement Actions.                dependable response from
• Compliance report
                           EPA’s sector facility indexing project and       regulators
  card
                           North Carolina’s website provided some
                           measure of public accountability over            -Serious violations may
                           violators and regulator responses. By            receive the same penalties
                           accessing these Internet sites, the public can   as minor violations
                           identify violators, locations, and penalties
                           assessed. States can gain an additional          -Minimum penalty may be
                           deterrent effect by publicizing their            substantially less than
                           enforcement responses widely, using              recovering economic
                           vehicles such as state websites and press        benefit
                           releases.

                      •    Compliance Report Card. California planned to publicize the results of
                           its enforcement program to keep managers, policy makers, and the public
                           informed about violations and actions taken. Its planned compliance
                           report card would be produced annually, showing compliance rates,
                           enforcement actions taken, the use of penalty funds and supplemental

                                             50
                        environmental projects. Ongoing compliance rates of dischargers and the
                        report card would be placed on the Internet.



Recommendations    We recommend that the Assistant Administrator for Enforcement and
                   Compliance Assurance:

                   5- 1. Establish a clear and consistent standard for measuring the promptness
                         of enforcement actions.

                   5- 2. Continue to work with the regions to assist states in establishing
                         proactive enforcement strategies to help facilities avoid long-term serious
                         violations due to plant or system obsolescence or capacity limits.

                   Chapter 6 also contains a recommendation for setting standards for
                   enforcement actions. See page 60.

Agency Response    5-1. Time Standard. The Office of Enforcement and Compliance
and OIG Position   Assurance explained that the permit program already had a “timely and
                   appropriate” standard described in the Enforcement Management System.
                   It believed that a more appropriate recommendation would be for the
                   Office to review the consistency of its standard and ensure that the
                   regions and states are aware of it.

                   OIG Position: We agree with the Office’s alternative recommendation and ask
                   it to address the recommendation’s implementation.

                   5-2. Proactive Strategies. The Office of Enforcement and Compliance
                   Assurance stated that it, in conjunction with the EPA Office of Water, had
                   developed guidance documents and training workshops to assist the
                   regulated community in avoiding noncompliance due to plant or system
                   obsolescence or capacity problems. Some specific examples were
                   guidance for implementation of nine minimum controls and a long-term
                   control plan for combined sewer overflows, as well as guidance
                   documents and training workshops for municipal officials, system
                   operators, and consultants on procedures to eliminate and prevent
                   combined and sanitary sewer overflows.

                   The Office of Enforcement and Compliance Assurance said it was
                   involved in the development of the Guide for Evaluating Capacity
                   Management, Operation and Maintenance Programs at Sanitary Sewer
                   Collection Systems which describes management practices and operation
                   and maintenance techniques that have served municipalities best in the

                                          51
reduction and elimination of sanitary sewer overflows from their systems.
The audience for this guidance is state and EPA personnel who are
assisting municipalities to comply with sanitary sewer overflow
requirements. The guidance will also help municipalities make decisions
on the rehabilitation and repair of their collection systems and ways to
better operate those systems. The guidance was scheduled for release as
an interim-final document early in fiscal 2002, and was planned to be
finalized following the final publication of the Sanitary Sewer Overflow
Rule.

The Guide for Evaluating Capacity Management, Operation and
Maintenance Programs at Wastewater Treatment Plants will assist
inspectors in determining whether a capacity management, operation and
maintenance program was adequate for a particular wastewater
treatment plant. The guidance will also be useful to municipalities for
determining whether their plants were following accepted practices and
for addressing any discrepancies as needed in order to improve or
maintain compliance. The guidance was scheduled for release as an
interim-final document early in fiscal 2002.

OIG Position: The Office’s reply partially addresses the issue and
recommendation. The guides are excellent references and will provide some
measure of compliance assistance to EPA regions and states. However, the
guides in and of themselves are not proactive enforcement strategies.




                     52
                                        Chapter 6
                  Improved Performance Evaluation and
                         Measurement Needed

                       To ensure fair and effective
                       enforcement of the Clean Water
                       Act, EPA regions need to continue      “EPA must balance the new expectations
                       performing both periodic, in-depth     raised by the Government Performance
                       program evaluations and annual         and Results Act, the [National
                       performance evaluations of states’     Environmental Performance] partnership
                       performance. These evaluations         approach suggesting more flexibility in
                       need to be consistent, continue        state oversight, and the more traditional
                       toward a goal of measuring the         measures used to assess performance of
                       effectiveness of performance, and      state enforcement programs.”
                                                                              -EPA Office of Regulatory Enforcement
                       be made easily accessible to the
                       public.



Oversight Tools        EPA had developed several tools to evaluate state enforcement performance:

                       •   Quarterly Non-Compliance Reports. States are required to report on
                           major facilities that have significant violations of their permits on a quarterly
                           basis, along with the enforcement actions the state has taken. Further, the
                           Office of Enforcement and
                           Compliance Assurance has developed EPA’s Oversight Criteria and
                           an automated system called “SNC                             Measures
                           [Significant Noncompliance] Tracker” • Clear identification of and priorities
                           which allows both states and regions             for the regulated community
                           to evaluate compliance records of            • Clear and enforceable
                           major facilities at any time.                    requirements
                                                                      •    Accurate and reliable compliance
                       •   Policy Framework. In 1986, EPA                  monitoring
                           established a framework for evaluating •        High or improving rates of
                           enforcement programs. In addition,              continuing compliance
                           Clean Water Act-specific guidance      •        Timely and appropriate
                           provides additional criteria.                   enforcement response
                                                                      •    Appropriate use of civil, judicial, and
                       •   Core Performance Measures.                      administrative penalty authorities
                           Under the National Environmental                               -EPA 1986 Policy Framework
                           Performance Partnership System,
                           EPA and the Environmental Council

                                              53
                                of the States have agreed upon seven “core” performance measures for
                                evaluating state enforcement and compliance performance.



Regions                     We found that at least eight regions were performing in-depth evaluations of
                            state programs. (We were unable to obtain information from two regions.) The
Performed
                            three regions we audited were performing in-depth evaluations that had
Valuable                    important findings that were used, or should have been used, to improve state
Evaluations                 programs. To illustrate:

                            •   In February 2000, Region 9 presented its findings on California’s Clean
“While states and               Water Act discharge program to a California joint legislative committee
local government                hearing on water quality issues. Its findings included the lack of storm water
have primary                    inspections and inadequate recovery of economic benefit in penalties. Both
responsibility for              of these issues were being addressed by revisions in California’s
compliance and                  enforcement strategy and policy.
enforcement
actions... EPA              •   In June 1999, Region 4's issued its findings from a review of North
retains the                     Carolina’s Clean Water Act discharge program. These findings included
responsibility for              the lack of an effective storm water program and weaknesses in the state’s
ensuring fair and               enforcement policy concerning identifying toxicity test failures as permit
effective                       violations.
enforcement of
federal                     Although regional evaluations found significant weaknesses with state programs,
requirements, and a         they were inconsistent. The regions that responded to our survey had
credible national           developed their own evaluation programs; these programs evaluated many of
deterrence to               the same program elements but did not evaluate others.
noncompliance.”
      -EPA’s 1986 Policy    The frequency of in-depth evaluations
     Framework for EPA-
        State Enforcement   also varied substantially. Region 4                     Best Practice:
              Agreements    performed in-depth evaluations every                 Region 8's Scoring
                            8 years or so because of the large                            System
                            number of states in the region. Region 6        •   Performance measured
                            told us it performed a detailed program             objectively and consistently
                            review on a semiannual basis.                   •   Clear expectations set for
                                                                                performance
                            EPA should develop and use consistent           •   States challenged to
                            criteria and measures for in-depth                  improve scores
                            program evaluations. At a minimum, all of       •   Areas needing improvement
                            the oversight criteria and measures in              specifically identified
                            EPA’s 1986 Policy Framework should be           •   Region could focus
                            included along with additional elements             resources on areas where
                                                                                state needed assistance


                                                   54
                included in the Clean Water Act discharge guidance, such as the adequacy of
                pretreatment programs.

                Further, to ensure consistent oversight, there should be a uniform, objective
                scoring mechanism. In this regard, Region 8 used an objective scoring system
                in 1999 for measuring state performance.

                We also believe regional evaluations should be made easily accessible to the
                public. Publicity apparently caused North Carolina to improve its storm water
                program. Although EPA Region 4's evaluation of North Carolina’s
                enforcement program in 1999 found serious deficiencies in management of the
                storm water program, the state did not agree to make investments in the
                program until we reported these same problems a year later.

Performance     EPA regions needed to use core performance measures to consistently measure
Measures Need   the effectiveness of state enforcement programs. Under the National
Focus on        Environmental Performance Partnership System, EPA and the Environmental
Effectiveness   Council of the States had
                agreed upon seven “core”
                performance measures for
                                                      Core Performance Measures
                evaluating enforcement
                                                    • Number of major inspections and
                programs.
                                                        percentage in priority areas
                                                    •   Number of enforcement actions
                While there was state
                                                    •   Number of facilities reached through
                resistence to collecting and
                                                        compliance assistance*
                reporting state data, EPA
                                                    •   Rates of significant noncompliance*
                should continue to press its
                                                    •   Percentage of significant
                state partners, including the
                                                        noncompliers returned to compliance
                Environmental Council of the
                                                    •   Environmental or health benefits
                States, to use core
                                                        achieved by enforcement activities*
                performance measures that
                                                    •   Results of using alternative
                address the effectiveness of
                                                        compliance approaches*
                enforcement programs.
                                                                                           *Optional
                Further, these measures should
                be reported annually and be
                easily accessible to the public.

                Core performance measures were not consistently used by regions or states to
                evaluate performance. Core performance measures are a limited set of
                measures designed to help gauge progress toward protection of the
                environment and public health. Only part of one core measure, the number of
                major facility inspections, was used to evaluate state performance by all seven
                regions that responded to our survey.

                                       55
                                                                     Core Performance Measures
                                                                                                Used by 7 Regions

                                        7
                                        6
                                        5
                                        4                                                                                                                  No. of Regions
                                        3
                                        2
                                        1
                                        0


                                                                                                Noncompliance %




                                                                                                                                       Environ. Benefits




                                                                                                                                                              Facilities Assisted
                                                                     No. of Enf. Actions




                                                                                                                  SNCs in Compliance
                                                No. of Inspections




                                                                                                                                                                                    Assistance Results
                                    SNC=Major Facilities in Significant Noncompliance

                                    We believe the core performance measures needed further evolution in order to
                                    achieve their national objective of “managing for environmental results” for a
                                    number of reasons:

                                    •       Bean Counts. Three of the measures counted activities, such as the
                                            number of major facilities inspected. These “bean counts” would be more
                                            meaningful if they were converted into rates, such as the percentage of the
                                            targeted universe inspected.

                                    •       Measuring Success. Rates, such as compliance rates, were not
                                            evaluated against benchmarks, standards, industry averages or geographic
“What is the relationship                   norms. It was unclear what a successful, average, or unsuccessful rate was.
between enforcement and
compliance, and how can             •       Environmental Outcomes. The states we reviewed were not measuring
we use this information to                  environmental outcomes from enforcement activities or assistance activities.
improve compliance and
meet other [North                   •       Correlation Analysis. Except for North Carolina, the states we evaluated
Carolina] objectives?”                      had not attempted to analyze correlations between monitoring activities,
    -North Carolina’s Enforcement
                                            enforcement actions and compliance rates. Analyzing such correlations
                Assessment 2000



                                                                                           56
    would be useful in evaluating the effectiveness of inspections, monitoring,
    notices of violations, and penalties.

As found by the National Academy “Many [states] were not enthusiastic about
of Public Administration, there      the prospect of an EPA report with
were several reasons that the core comparable performance measures for all
performance measures did not fully 50 states....”
shift the focus from “bean counting”              -National Academy of Public Administration,
to environmental results. Four of                                           November 2000
the most important core
performance measures were optional, such as environmental benefits achieved
through concluded enforcement activities. Further, states refused to collect and
report on many measures. They claimed the measures did not always address
their problems and added to their reporting burden.

EPA had its problems with core performance measures as well, the Academy
reported. EPA was unwilling to abandon its traditional practice of negotiating
agreements on activities states will conduct. Further, the core measures were
developed separately from the Agency’s own goals and measures under the
Government Performance and Results Act. States believed there was a
significant disconnect between the Agency’s own goals and core performance
measures.

In spite of these weaknesses, core
performance measures can provide “All states should compile core
an important measure of success        performance measures; EPA should
and public accountability. By          gather them and make them publicly
reporting on compliance rates and      available.”
environmental benefits, the core
performance measures provide                       -National Academy of Public Administration,
                                                                             November 2000
indicators of state program
accomplishments and success. The
National Academy of Public Administration has recommended that all states
compile core performance measures and EPA consolidate them and make them
publicly available. We agree. As California observed, state officials “must be
regularly informed as to how their actions, policies, and staff are affecting the
rate of compliance.” States (and EPA) should be held accountable for their
results.

Developing core outcome performance measures will be more difficult. GAO
recently concluded that enforcement outcome measures have been difficult to
create because of:



                          57
                     •   The frequent absence of baseline data needed to determine whether
                         compliance rates or environmental quality have improved under new
                         strategies.
                     •   The inherent greater difficulty and expense in quantifying outcomes as
                         compared to counting and reporting enforcement activities.
                     •   Difficulty in establishing causal links between enforcement strategies and
                         compliance rates or environmental quality.

States’ Efforts to   While core performance measures
Develop              may not have addressed each state’s                   Best Practice:
Performance          problems, the states we evaluated                Using Outcome Measures
Measures             had not made much progress in
                     developing more appropriate measures.          “Florida was one of the few states
                                                                    to have attempted to quantify
                     Utah and North Carolina were tracking          outcomes, noting that calculating
                     their compliance rates, although there         accurate industrywide compliance
                     were some serious limitations. California      rates was an important part of the
                     was not routinely evaluating its               state’s effort to focus programs on
                     compliance rates state wide. However,          results.”
                     states were making efforts to develop                            -GAO Testimony, June 1998
                     better measures.

                     North Carolina had formed a work group
                     to develop performance measures to assess the effectiveness of its enforcement
                     programs, including water quality. The three performance measures developed
                     for enforcement were the (1) number of repeat violators, (2) compliance rate
                     per number of regulated facilities, and (3) compliance rate per inspections.

                     Utah and Region 8 had also partnered in an attempt to develop better
                     enforcement performance measures, including environmental improvement
                     measures. After much effort, the project came to a halt. The Region and state
                     decided not to proceed because the effort would not reduce reporting; instead,
                     it would increase data gathering.

                     California was in the midst of a
                                                            “...The attractiveness of performance
                     major initiative to improve its
                                                            measures is exceeded only by the
                     compliance rates for water
                                                            difficulty of their design and
                     dischargers. It recognized the
                                                            implementation.”
                     serious limits of its monitoring and
                                                                     -National Academy of Public Administration
                     data systems and was in the process
                     of implementing new systems.




                                            58
                    Only one of the seven regions that responded to our survey was aware of a
                    state that used outcome-based performance measures. As previously noted,
                    developing outcome-based measures was inherently difficult. The Office of
                    Enforcement and Compliance Assurance had issued grants to states to develop
                    better performance measures. The results of these studies should be used to
                    further refine the core performance measures.

Lack of Goals and   Although it was EPA’s goal to increase compliance, this goal had not been
Standards           articulated into specific measures of success by EPA or the states we reviewed.
                    Both Utah and California had set some compliance goals; however, there were
                    not specific goals or standards for most aspects of the program. For example,
                    compliance goals were not established for watersheds, priority programs, high-
                    risk sources, or priority industrial sectors. None of the states we reviewed had
                    specific goals or objectives for increasing compliance, reducing recidivism, or
                    improving water quality by specific amounts or percentages.

                    The lack of standards and goals made it difficult for decision-makers to make
                    decisions on whether to invest or divest in certain strategies, target areas,
                    sectors, watersheds, or sources. Also, without goals or standards, it was
                    difficult to evaluate the relative success of programs.



Recommendations     We recommend that the Assistant Administrator for Enforcement and
                    Compliance Assurance routinely determine whether states are fulfilling their
                    obligations to monitor and enforce discharge programs. Specifically:

                    6- 1. Develop consistent criteria and measures for in-depth program
                          evaluations of state programs:
                          a. At a minimum, all of the oversight criteria and measures in the 1986
                               Policy Framework should be included along with additional
                               elements included in the Clean Water Act discharge guidance.
                               Include the accuracy and completeness of data systems, the quality
                               of inspections, and the reliability of self-monitoring reports.
                          b. Evaluate all significant discharge programs including storm water,
                               minor dischargers, and concentrated animal feeding operations.
                          c. Use a uniform, objective scoring mechanism.

                    6- 2. Have regions perform in-depth evaluations of state enforcement
                          programs every two to three years. Make these evaluations available to
                          the public through publicity releases or the EPA website.




                                           59
                   6- 3. Continue to remind state partners, including the Environmental Council
                         of the States, of their obligation to use core performance measures that
                         address the effectiveness of enforcement programs.

                   6- 4. Have regions collect and use all core performance measures to
                         consistently measure the effectiveness of state enforcement programs on
                         an annual basis. Consolidate these measures nationwide and make them
                         public.

                   6- 5. Work with regions to assist states in setting specific goals and standards
                         for compliance, recidivism, the timeliness of enforcement actions and
                         other important measures.

Agency Response    6-1. Consistent Criteria and Measures. The Office of Enforcement and
and OIG Position   Compliance Assurance agreed that a process for periodic evaluation of
                   the Clean Water Act discharge program in each state would be useful. It
                   stated that most regions conducted assessments of state water
                   enforcement programs, either annually or bi-annually, though the nature
                   of the assessment varied. Some variability in the assessment process was
                   necessary since priorities varied by state, as did work sharing with EPA
                   regions. The Office asserted that the review content of state performance
                   for any program, not just the Clean Water Act discharge program, must
                   be governed principally by the authorization agreements, grant work
                   plans and agreements and the performance partnership agreement
                   between a region and a state. Those policies and agreements should
                   define priorities, describe work sharing arrangements between a region
                   and a state, and define the evaluation process to be used, among other
                   things.

                   The Office of Enforcement and Compliance Assurance stated it had a
                   national evaluation process which focused on “program element reviews”
                   among programs. These reviews examine policy and implementation of a
                   particular program element in all EPA regions and a sample of states.
                   The Office noted it was responsible for working with EPA regions and
                   states to evaluate a wide scope of statutory programs, and while resources
                   did not permit a commitment to ensure a top to bottom evaluation of the
                   enforcement of the discharge program in every state, the Office agreed to
                   consider how best to concentrate on key concerns of the program.

                   The Office of Enforcement and Compliance Assurance noted that since
                   the program element reviews will each address a different program or
                   problem, there will not be a standing uniform scoring mechanism.
                   However, within each review, the questions used and the weight assigned

                                          60
to the answers will be the same. The Office agreed to continue to develop
a consistent set of criteria and measures as part of its design for each
program element review. All applicable policy is considered in designing
each review. For discharge permits, this will include criteria from the
1986 Policy Framework. However, the Office was not yet in a position to
identify what reviews will be undertaken in the future.

OIG Position: We laud the Office of Enforcement and Compliance
Assurance’s efforts to develop a consistent set of criteria and measures for
“key concerns” of state enforcement programs. However, the plan to evaluate
a single element of a state enforcement program is less than optimal and merits
serious reconsideration. EPA should be aware of significant weaknesses in the
state programs it has authorized. A single program element review will not
evaluate all of the state’s significant discharge programs. Morever, single
program element reviews fail to consider how resource constraints drive
program management.

As the Office noted, it has uniform criteria to evaluate state enforcement
programs: (1) EPA 1986 Policy Framework, and (2) core performance
measures developed by EPA and the Environmental Council of the States.
These criteria provide a sound foundation for consistently evaluating state
performance nationally.

Further, as detailed in this report, all of the regions that responded to our survey
indicated they were performing comprehensive state evaluations. Thus, lack of
resources does not seem to be a major issue.

6-2. In-Depth Evaluations. The Office of Enforcement and Compliance
Assurance pointed out that many regions performed in-depth evaluations
of state enforcement programs on a rotating basis, using the Performance
Partnership Agreement, grant agreement, and existing policy as a basis.
The Office agreed that it would be ideal to have these evaluations of
enforcement programs in all states every 2 or 3 years; however, resources
simply would not allow that in some EPA regions. The Office also agreed
that publicity can be an effective factor to ensure competent program
operations; however, active publication of all evaluations on a website
may exacerbate federal-state tensions and inhibit a frank, open review
process. The Office reserved to use the website as conditions dictate.

OIG Position: It appears EPA regions have adequate resources for evaluating
state programs; all of the regions that responded to our survey indicated they
were performing comprehensive evaluations of state programs. Further, the
Office of Enforcement and Compliance Assurance could team with the Office

                       61
of Water to better leverage federal resources directed at evaluating state
performance.

One weakness in the existing state evaluation process was the lack of consistent
criteria and measures. For evaluations to be equitable, comparable, and
valuable, they need to be consistent, objective, continue toward a goal of
measuring the effectiveness of performance, and easily accessible to the public.

The public should be aware of serious deficiencies in a state’s ability to protect
human health and the environment. While public information about state
performance may exacerbate federal-state tensions, it would provide an
important means for holding states accountable for their environmental
performance.

6-3. State Use of Core Performance Measures. The Office of
Enforcement and Compliance Assurance agreed to continue to remind
states of their obligation to use core performance measures, and
suggested that OIG encourage the states directly where possible to do so
as well. In fiscal 1999, $1.8 million was awarded to 11 states to develop
outcome measures, and, in fiscal 2000, another $1.2 million was awarded
to 10 states to develop outcome measures specifically for compliance
assistance. The Office was also discussing with states possibilities for
funding performance measurement work within the National
Environmental Performance Partnership System framework.

6-4. EPA Use of Core Performance Measures. The Office of
Enforcement and Compliance Assurance advised that states report on the
required core measures through national data systems. It is the optional
measures which the states have opted not to use. The Office agreed to
continue to promote the use of the optional measures through all means
available, including grants. The Office consolidates information on
required core measures of outputs nationally, and this information is used
by EPA regions in their performance discussions with their states and is
available to the public on request.

6-5. Compliance Measures. The Office of Enforcement and Compliance
Assurance noted that while measures for compliance, recidivism, and the
timeliness of enforcement actions were not “core measures” for states, it
had established performance standards for the timeliness of enforcement
actions which, for the most part, were derived directly from the 1986
Policy Framework. Regions have worked with states to have them adopt
these standards. In fact, the Office included state performance on this
standard in some of its program management reports.

                       62
Since the measure for recidivism is new, the Office of Enforcement and
Compliance Assurance wanted to get some experience with the measure
before establishing performance goals. Likewise, it has not set
performance goals for compliance rates, recognizing that compliance
rates are the product of many factors, not just EPA activities. The Office
planned to work with the states through a grant to the Environmental
Council of the States to assist in developing a consistent approach to
determining compliance rates.

The Office of Enforcement and Compliance Assurance stated it monitored
and reported on recidivism and timeliness on a national basis. It was
considering setting a national target for recidivism for all programs, as
well as a national target for improving compliance.

OIG Position: The Office’s response partially addressed recommendation 6-
5. The Office’s efforts to set goals and standards for compliance, recidivism,
and timeliness are critical to evaluating the effectiveness of state (and EPA)
performance and should be continued. We are recommending, however, that
regions work with states to establish specific performance goals in these areas.
We look forward to the Agency’s response to this recommendation in its reply
to this report.




                      63
64
                       Exhibit 1
        Details on Scope and Methodology


Scope     This audit resulted from concerns over the effectiveness of state enforcement
          programs. We focused on the Clean Water Act discharge program because of
          a lack of recent audit coverage in this area.

          Forty-four states have EPA approval to issue, monitor, and enforce permits
          under the Clean Water Act’s National Pollutant Discharge Elimination System
          program. EPA regions issue permits in the remaining states. The purpose of
          the discharge program is to protect human health and the environment by
          preventing the discharge of pollutants.

          In addition to evaluating national data, we evaluated three EPA regions: 4, 8,
          and 9. In each region, we evaluated one state authorized to issue discharge
          permits. We selected states with a range of population, economy and sources
          of water pollution: California, North Carolina, and Utah. These states
          represent about 16 percent of the U.S. population.

          We issued a separate report on North Carolina entitled “North Carolina’s
          NPDES Enforcement and EPA Region 4 Oversight” in September 2000.
          This report addressed matters not included in this report, such as water testing
          methodology. Issues pertaining to this audit are included in this report.
          Additional details on the scope and methodology of our North Carolina
          evaluation are discussed in the North Carolina report.

          We considered the results from a National State Auditors’ Association-
          coordinated audit that included enforcement of the Clean Water Act. As of
          April 1, 2001, five state audit reports had been issued that addressed Clean
          Water Act enforcement to some degree: Arkansas, Colorado, Louisiana,
          Oregon, and Maryland. We considered the results of these audits in this
          report.

          We performed our audit according to Government Auditing Standards issued
          by the Comptroller General. Our field work was conducted from February
          2000 to October 2000. The audit included management procedures in effect
          as of fiscal 1999. We evaluated strategies, compliance monitoring systems, and
          enforcement actions taken from October 1, 1998 to December 31, 1999.




                                 65
Methodology           As part of our evaluation of management controls, we performed a risk
                      assessment. This risk assessment identified the potential threats to state water
                      enforcement and the management controls to address these threats.
                      Based on this risk assessment and interviews with EPA officials, we identified
                      critical management controls.

Management Controls   In assessing management controls, we         Management Controls Over State
                      also considered the Agency’s own              Water Enforcement Programs
                      assessment. EPA’s Permit                    T   Clean Water Act and
                      Compliance System was identified in             amendments
                      1999 as an Agency weakness during           T   EPA approval process for state
                      EPA’s annual self-assessment                    programs
                      process. In EPA’s fiscal 2000               T   40 CFR 122 and 123
                      Integrity Act Report to the Office of       T   State laws, policies and guidance
                      Management and Budget, EPA                  T   EPA’s Permit Compliance System
                      reported it had three major initiatives         and state data systems
                      underway, in conjunction with the           T   1986 Policy Framework for
                      states, which were intended to                  State/EPA enforcement
                      address the issues involved with the            agreements
                      Permit Compliance System and                T   EPA Memorandum Of
                      improve the usefulness of the system            Agreement Guidance
                      as a management tool: (1) system            T   EPA’s Enforcement
                      modernization; (2) interim data                 Management System,
                      exchange format; and (3) electronic             Enforcement Response Guide,
                      reporting. The status of these                  and enforcement policies
                      initiatives is discussed in Exhibit 2,      T   Regional performance
                      page 69.                                        partnership grant agreements,
                                                                      work plans, and evaluations
                      The management control weaknesses           T   Regional audits and
                      we found are described in this report,          evaluations of state programs
                      along with recommendations for              T   Regional memorandum of
                      corrective action. These weaknesses             agreements
                      were a significant contributing cause       T   EPA Inspection Manual
                      to enforcement effectiveness                T   Inspections
                      problems.                                   T   Self-monitoring reports
                                                                  T   Quarterly noncompliance reports
Analysis Techniques   In evaluating state strategies, we
                      considered compliance monitoring
                      activities performed in high-risk areas.

                      To evaluate compliance monitoring and enforcement systems, we evaluated a
                      judgmental sample of facilities to see if violations were properly identified and
                      enforcement actions were appropriately taken. In California, we selected a
                      judgmental sample of nine major facilities in the San Francisco Bay Regional


                                             66
                      Water Quality Control Board. We also evaluated the storm water compliance
                      monitoring systems of the Los Angeles Regional Water Quality Control Board.
                      Both boards are part of California’s State Water Resources Control Board.
                      Moreover, we considered Region 9's audits of Clean Water programs that had
                      been performed in California’s three other regional water boards. In evaluating
                      compliance monitoring and enforcement systems in Utah, we selected a
                      judgmental sample of six major facilities.

                      We also evaluated a sample of 34 major facility inspections in California and
                      Utah; California’s were selected from the San Francisco region. We evaluated
                      four storm water inspections in the Los Angeles region and seven from Utah.
                      These were judgmental samples; however, we believe they were representative.

                      To evaluate regional oversight of state programs and performance measures,
                      we conducted a survey of 10 regions; seven regions responded. We also
                      obtained information on oversight procedures for another region. In evaluating
                      oversight, we compared annual and in-depth state evaluation criteria to EPA’s
                      1986 Policy Framework and the National Environmental Performance
                      Partnership System’s core performance measures.

Evidence Considered   In analyzing state strategies, we considered the National Water Quality
                      Inventory; EPA’s Strategic Plan and annual plans; state plans, strategies, and
                      grant agreements; EPA’s 2000/2001 Memorandum of Agreement Guidance;
                      Office of Water’s report, “Liquid Assets 2000"; regional memoranda of
                      agreement, strategies and plans; and GAO reports. We interviewed
                      responsible EPA headquarters, regional, and state personnel.

                      We considered the following evidence in evaluating compliance monitoring and
                      enforcement:

                      •    State compliance monitoring activities, including receipt and review of
                           discharge monitoring reports, discharger inspections, and handling of
                           complaints.
                      •    State enforcement actions, including timeliness and appropriateness of the
                           response, appropriateness of the penalty, and penalty collection.

                      We reviewed inspection procedures and examined state inspection reports.
                      We also considered state and regional board policies and practices,
                      management reports and interviews with responsible officials.

                      For the three regions we reviewed, we obtained regional evaluations of state
                      performance.




                                            67
Data Limitations   There were serious limitations in the scope of the management information
                   available to evaluate state enforcement programs. EPA’s permit compliance
                   system was inaccurate and incomplete. (This problem is described in Chapter
                   3, page 19.) Thousands of smaller discharge permits were not required to be
                   included in the system. Further, state systems were limited, especially for storm
                   water program compliance status and activities. These issues are also further
                   discussed in Chapter 3, page 19 and Chapter 4, page 35.

Prior Audit        Neither EPA Office of Inspector General nor GAO have conducted any recent
Coverage           national audits of state enforcement of Clean Water Act dischargers.

                   The National Academy of Public Administration issued a report in November
                   2000 which included evaluations of EPA’s water and enforcement programs.




                                          68
                    Exhibit 2: Other Matters
              Key Management Decisions Needed for the
                     Permit Compliance System

                      During the audit we attempted to determine if the plans for the modernized
                      Permit Compliance System would remedy data gaps in EPA and state water
                      enforcement information. These data gaps are discussed in Chapter 3 of this
                      report (page 19). We were unable to ascertain whether the modernized system
                      and its components would remedy these data gaps. We also identified
                      management decisions the Office of Enforcement and Compliance Assurance
                      should address promptly to ensure the system will meet both EPA and state
                      needs.

Permit Compliance     EPA is redesigning the Permit Compliance System to better address current
System                requirements of discharge permitting and enforcement programs and to meet
                      new Office of Water initiatives, such as tracking reduced pollutant loadings,
Modernization
                      capturing information on storm water sources, and assessing the health of
Projects              individual watersheds. EPA estimates that the cost for modernizing the system
                      is between $12 and $14 million.

                      The Office of Enforcement and Compliance Assurance has three major
                      initiatives currently underway for its Permit Compliance System, in conjunction
                      with the states, which are intended to address system problems and improve its
                      usefulness as a management tool:
                      •     System modernization,
                      •     State interim data exchange format, and
                      •     Electronic reporting.

                                        Permit Compliance System Initiatives
                                             Target Date
                      Initiative             (Fiscal)         New Functions

                      System Modernization   2003             Tracks reduced pollutant loadings,
                                                              captures information on storm water
                                                              sources, assesses health of watersheds

                      Interim Data           2001             Eases entry of state data into system;
                      Exchange Format                         simplifies transition to modernized
                                                              system

                      Electronic Self        2002             Discharger self-monitoring reports
                      Reporting                               submitted electronically



                                             69
           Efforts to modernize the system have been frustrated over the years by a lack
           of funding and other Agency priorities. In addition, there have been regulatory
           hurdles to overcome. For example, to enable electronic reporting, the Agency
           had to modify federal discharge regulations to allow the regulated community to
           use electronic reporting to submit discharge information to EPA.

Concerns   In evaluating whether the modernized system would remedy problems with data
           gaps, we identified several concerns that we believe should be promptly
           addressed:

              •   Data Entry Requirements Were Not Updated. The Agency policy
                  that identifies data that EPA and states are required to enter into the
                  national information system had not been updated for over a decade
                  and excluded storm water data. Meanwhile, the functional
                  requirements documents for the new system had been completed and
                  the project had started the detailed design phase. Data entry
                  requirements are critical for determining system requirements,
                  identifying system costs and benefits, and developing electronic
                  reporting regulations.

              •   Requirements Documents Were Incomplete. The requirements
                  documents for the new system were incomplete. We were told that
                  new data elements had been established for storm water and
                  concentrated animal feeding operation permits and, potentially, new
                  data elements will be needed for certain minor facility operation
                  permits. However, this will not be fully known until the data entry
                  policy is updated. Also, the Office of Enforcement and Compliance
                  Assurance had not determined how the compliance status would be
                  determined for storm water, concentrated animal feeding operations,
                  and other new permits.

              •   Formal Consensus Was Not Reached. The Office had not
                  successfully collaborated with the Office of Water in the design of the
                  system requirements. Further, the states had not formally bought into
                  system requirements. Although the Office of Water and states had
                  been included in workshops to determine system requirements, they
                  had not reached a formal consensus on the modernized system
                  requirements to ensure the new system will meet the users’ needs.

              •   Cost-Benefit Analysis Was Incomplete. System modernization for
                  the Permit Compliance System had begun the detailed design phase
                  without completing the required life cycle cost-benefit analysis. Office
                  of Management and Budget Circular No. A-11, Part 3 - Planning,
                  Budgeting, and Acquisition of Capital Assets (July 2000), and OMB

                                 70
                           Circular No. A-130, Management of Federal Information
                           Resources (November 2000), require agencies to prepare and update
                           cost benefit analyses for information systems. An accurate cost-benefit
                           analysis is necessary to identify the most cost-effective solution for the
                           new system. Also, the expected benefits of the new system need to be
                           quantified for evaluating the return on investment.

                       •   Key Decision Documents Were Needed. Although the modernized
                           system was estimated to cost more than $10 million in life cycle costs,
                           the required system charter and system management plan decision
                           papers had not been prepared or approved by appropriate levels of
                           management. According to EPA’s Information Resources
                           Management Policy, the system charter should have been developed
                           during project initiation, included an estimate of life cycle costs, and
                           identified appropriate management levels for approval of decision
                           papers. Further, the decision paper for the system management plan
                           should have been produced at the conclusion of the analysis stage and
                           updated as the project progressed.

Suggestions        We suggest that the Office of Enforcement and Compliance Assurance
                   collaborate with the Office of Water to create an updated data entry policy.
                   Upon completion of this policy, we suggest that the Assistant Administrator for
                   Enforcement and Compliance Assurance:

                       •   Complete the system requirements document.
                       •   Execute memoranda of agreements with the Office of Water and state
                           participants to help ensure (1) that the baseline requirements for the
                           new system design are formally agreed to and (2) that both federal and
                           state needs are addressed in the design of the new system.
                       •   Perform a cost-benefit analysis of the new system that addresses the
                           electronic reporting and data entry requirements, the system
                           development costs, and the projected operational and maintenance
                           costs over the life of the system.
                       •   Establish and approve a system charter and system management plan.

Agency Response    The Office of Enforcement and Compliance Assurance agreed with the
and OIG Position   suggestions, except for the suggestion to execute memoranda of
                   agreements with the Office of Water and the states on the system
                   requirements and design. It explained that the schedule below addresses
                   the tasks it will perform, with the involvement of EPA regions and states:




                                          71
    Update system management plan                             5/01-12/01
    Complete system design specification document             7/01-3/02
    Update federally required data element list               4/02-9/02
    Update system policy statement                            Ongoing-9/02

•   System Requirements Document. The Office of Enforcement and
    Compliance Assurance informed us that data requirements were
    collected from EPA (the Office of Water and the Office of
    Enforcement and Compliance Assurance) and states to determine the
    scope of the modernized Permit Compliance System. The next phase
    of system modernization is the design phase. One of the major
    products from that phase will be a design specification document.
    This document will be developed with very intense participation by
    EPA and states (both direct users and interface states). The design
    specification includes data elements to be collected in the system, data
    entry screens, report formats, and specific functionality to be
    supported, including electronic reporting efforts being managed
    elsewhere in the Agency. This effort will begin in July 2001 with the
    national Permit Compliance System meeting and will be completed by
    March of 2002.

OIG Position: The finalization of the data requirements has the potential to
affect the design phase and the cost benefits of system modernization.
Accordingly, we suggest that extensive work on the design phase not be
initiated until after the finalization of the data and functional requirements.

•   Memoranda of agreements with the Office of Water and state
    participants. The Office of Enforcement and Compliance Assurance
    agreed that full consultation and coordination with the Office of Water
    and the states was necessary; however it did not agree that the
    development of agreements with these parties was necessary or
    desirable. The Office believed that such a process would be extremely
    time consuming and resource intensive, and the goals of such a
    process can be achieved in other ways. Coordination had already
    occurred (and will continue) with Association of State and Interstate
    Water Pollution Control Administrators and the Environmental
    Council of the States.

    Decisions on policy and system issues will be handled at a senior level
    between the Office of Water and the Office of Enforcement and
    Compliance Assurance with recommendations coming from the Permit
    Compliance System Steering Committee (representing EPA
    headquarters, regions, and states). One of the tasks before the
    Steering Committee and senior water managers is the updating of the

                       72
    system Policy Statement and the identification of federally-required
    data elements.

    The Office of Enforcement and Compliance Assurance stated it had
    worked extensively with the Office of Water to identify data
    requirements. It intended to continue to work with the Office of Water
    and the states to finalize data requirements, both for existing
    programs and for new regulatory activities which were not well
    handled in the Permit Compliance System. In the next several months,
    system modernization managers will be working with the Office of
    Water to verify that requirements are still accurate and complete.
    Additionally, a data requirements team with representatives from the
    Office of Enforcement and Compliance Assurance, Office of Water,
    and state will be established at the Permit Compliance System
    national users meeting in July to review, validate, and finalize the
    identified requirements.

    Once the data requirements are established, a workgroup, including
    EPA headquarters and regional representatives, as well as states, will
    be formed to identify the subset of data requirements which will be
    federally mandated for entry into the Permit Compliance System. The
    Policy Statement will then be modified to incorporate the data
    elements which states and regions are required to enter into the system
    as well as the universe to which those requirements will apply.

OIG Position: We believe it is critically important that the data and functional
requirements for the modernized system be formally agreed to by the Office of
Water and states to help ensure the system contains the agreed upon data, data
definitions, data formats, and pertinent technical information needed to foster
data quality and data integration. Without such agreements, there is an
increased risk that the modernized system will not (1) meet the users’ needs
and (2) lower the costs to exchange data.

Formal agreements are also called for by the Exchange Network, an EPA
project to improve environmental decision-making, improve data-quality and
accuracy, and reduce data redundancy. The Exchange Network’s Blueprint
calls for EPA and the states to have “trading partner agreements” that contain
the agreed upon data, formats, and related technical information. The Blueprint
specifically cites Permit Compliance System data as an exchange of data to be
governed by trading partner agreements.

•   Cost-Benefit Analysis. The Office of Enforcement and Compliance
    Assurance agreed to complete a cost-benefit analysis by September
    2001.

                      73
OIG Position: Because the finalization of the data requirements has the
potential to affect the design phase and the costs and benefits of the Permit
Compliance System modernization, we suggest that the cost-benefit analysis be
completed after the finalization of the data and functional requirements.

   •   System charter and system management plan. The Office of
       Enforcement and Compliance Assurance agreed to establish and
       approve a system charter and management plan by December
       2001. However, the Office stated that a system management plan
       was done early in the planning phases of system modernization. It
       was replaced with the Information Technology Management
       Reform Act submission, which contained all of the information
       required in the system management plan and was approved by
       Deputy Assistant Administrator. This submission was provided to
       the Office of Management and Budget. As this document was
       updated each year, the Office believed that it served the purpose of
       the system management plan; however, it agreed to update the
       plan by December 2001.

OIG Position: We concur with the decision to update the system management
plan by December 2001. However, we were unable to substantiate that a
system management plan was previously prepared. Further, a system
management plan must be approved by the Assistant Administrator, rather than
the Deputy Assistant Administrator. Also, a system management plan also must
be linked with Agency and organizational information resource management
strategic and multi-year implementation plans, and be updated to reflect actual
and planned changes as new system decision papers are approved.




                      74
                                     Exhibit 3
                                Report Contributors


Western Audit Division

   Charles McCollum, Divisional Inspector General for Audit
   Katherine Thompson, Team Leader
   Dan Cox, Assistant Team Leader
   Melinda Burks, Auditor
   Clem Cantil, Auditor
   Jimmy Ko, Auditor
   Lori Risby, Auditor
   Deborah Stanley, Auditor

Southern Audit Division (North Carolina Audit)

   Mary Boyer, Divisional Inspector General for Audit
   John Bishop, Audit Manager
   James Hatfield, Team Leader
   Laurie Adams, Auditor
   Jerri Dorsey, Auditor
   Chris Dunlap, Auditor
   Geoff Pierce, Auditor

Central Audit Division (North Carolina Audit)

   Denton Stafford, Auditor
   Charlie Watts, Auditor

Headquarters

   Eric Hanger, Associate Counsel
   Ernest Ragland, Auditor
   Bernard Stoll, Engineer

   Stephen Schanamann, Environmental Scientist (North Carolina Audit)
   Gerald Snyder, Engineer (North Carolina Audit)
   Michael Wilson, Environmental Scientist (North Carolina Audit)




                                                 75
76
                                       Exhibit 4
                                  Report Distribution


U.S. Environmental Protection Agency
   • Administrator
   • Deputy Administrator
   • Chief Financial Officer
   • Assistant Administrator for Water
   • Assistant Administrator for Environmental Information
   • Associate Administrator for Congressional and Intergovernmental Relations
   • Agency Followup Official (2710)
   • Agency Followup Coordinator (2724)
   • Regional Administrators

State of California
   • Environmental Protection Agency
   • State Water Resources Control Board
   • State Auditor

State of North Carolina
   • Department of Environment and Natural Resources
   • Division of Water Quality
   • State Auditor

State of Utah
   • Department of Environmental Quality
   • Division of Water Quality
   • State Auditor


Association of State and Interstate Water Pollution Control Administrators

Environmental Council of the States

General Accounting Office

National Academy of Public Administration

National State Auditors’ Association

Natural Resources Defense Council


                                                77
78
                                   Appendix: Agency Response

                           UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          WASHINGTON, D.C. 20460


                                                 JUN 29 2001




                                                                                            OFFICE OF
                                                                                        ENFORCEMENT AND
                                                                                      COMPLIANCE ASSURANCE




MEMORANDUM

SUBJECT:        OECA Comments on the Draft Audit Report, “State Enforcement of Clean Water Act
                Dischargers Can Be More Effective”

FROM:           Sylvia K. Lowrance
                Acting Assistant Administrator

TO:             Charles McCollum
                Divisional Inspector General for Audit
                Western Audit Division
                Office of the Inspector General


        Thank you for the opportunity to review and comment on the April 25, 2001 version of the Draft
Audit Report, “State Enforcement of Clean Water Act Dischargers Can Be More Effective.” We agree
with several of the conclusions in the report, including that States need to implement risk-based
approaches to water enforcement and that it would be useful to have a process for periodic evaluation of
the Clean Water Act program in each State. We also agree that modernization of the Permit Compliance
System (PCS) should be a high priority; in fact, the modernization of the Permit Compliance System
(PCS) has been an OECA priority for the last four years. As we have informed you on at least two
previous occasions, part of the justification for this work was to improve the quality of information in PCS.
OECA has funded modernization efforts during this 4 year period and Agency funds have been provided
since FY 2000. OECA’s commitment to modernizing PCS is further demonstrated through our
recommendations as early as 1999 that PCS be added as an Agency-level FMFIA weakness.

         However, we remain very concerned about the way some of the issues, as well as EPA’s role, are
characterized in the report and that many of the findings are based on anecdotal information. In brief, the
draft report does not recognize that: 1) the Office of Enforcement and Compliance Assurance (OECA)
has an exhaustive process for setting national enforcement priorities, including stakeholder meetings and a
Federal Register notice and comment period (p. ii), 2) States should be responsible for setting
“watershed-specific enforcement priorities”(p. 13), and 3) flexibility in NPDES program requirements
(e.g., tradeoffs of major and minor inspections are allowed) supports State enforcement strategies (p. 7).
We are also concerned that the issues related to PCS have been oversimplified in the report.

    OECA’s national enforcement priority setting process includes consultation with the Regions, States,
Tribes, and the national program managers. In addition, the views of the public are solicited through the
publication of a Federal Register notice identifying proposed priorities. Public health and environmental
risk is a major criterion used in identifying possible priorities, and documents coming from States, such as
the 305(b) report, are used in determining which environmental problems pose the greatest risks. Wet
weather issues, such as sewer overflows and contaminated urban and agricultural runoff, were identified as
major sources of water quality impairment in the 305(b) reports and were identified as an OECA priority
for FY 2000-2001. Storm water was added at the request of EPA’s Office of Water. A stakeholder
meeting held in the fall of 2000, which included State representation, verified that “wet weather” should be
a priority again for FY 2002-2003. The audit report fails to recognize the involvement of States in the
OECA national priority setting process, as well as the significance given to environmental issues identified
by the States. A chronology of OECA’s stakeholder process is included in response 2-1 of the
attachment.

     OECA believes it has been sending a consistent and strong message to the Regions and the States
that enforcement resources should be concentrated on the most significant pollution sources. OECA has
developed national risk-based strategies for addressing sewer overflows, concentrated animal feedlot
operations, and storm water; each of these emphasize the importance of focusing on impaired watersheds.
We agree more needs to be done, but we question whether additional guidance documents and further
rounds of consultation would help, or whether they would drain scarce resources in redundant and time
consuming bureaucratic processes with little environmental result. We believe that the real issue is not
OECA’s priority setting process but whether risk-based strategies are being implemented in the field by
the States. The draft report reveals that several States have no risk-based planning at all. States need to
assume a greater share of responsibility in addressing significant pollution problems. For example, they are
often in the best position to identify watershed-specific priorities and develop field level implementation
plans. A constructive recommendation would be that EPA should place more emphasis on program
reviews and improve its efforts to share information (e.g., on “best practices”) with the States.

      OECA disagrees with the finding that the core NPDES program inhibits the development of State
strategies. In its FY 2000/2001 OECA Memorandum of Agreement (MOA) Guidance (“the MOA
Guidance”), OECA’s focus was not on major point sources, but on the same “wet weather” risks to water
quality cited by OIG in its report, including CAFOs and storm water. The MOA Guidance does state that
it is an Agency goal to inspect 100% of all major point sources annually because major point sources
generate the majority of effluent flow and toxic pollutant loadings which can significantly affect water
quality in receiving waters. OECA believes that implementing a risk-based approach means evaluating all
dischargers contributing to water quality impairment and an important component of that is maintaining a
field presence at major facilities. Consistently inspecting major facilities in the past may be responsible for
the relatively high levels of compliance among majors. We need to recognize that we would lose
significant environmental benefits associated with higher levels of compliance among majors if we were to
allow a total shift to minors. OECA’s MOA Guidance allows Regions/States flexibility in shifting a portion
of their total inspection resources from major to minor facilities, particularly in priority watersheds, where
those minor facilities represent a significant risk. OECA’s guidance makes clear that minor inspections can
be traded for major inspections at a 2:1 ratio, using a risk-based rationale, if the Region/State is willing to

                                                      80
report the minor inspection results in PCS. Resistance sometimes arises from a lack of rationale (e.g., no
risk-based strategy), unwillingness to commit to the tradeoff ratio, and/or unwillingness to report minor
data in PCS. Reporting and tracking outcomes from these inspections is critical to addressing OIG’s
concerns regarding the lack of data on minors and for EPA to document results under the Government
Performance and Results Act (GPRA).

    Other guidance documents issued by OECA (e.g., the “Revision to Inspection Coverage and
Frequency Criteria of Clean Water Act Permittees,” dated September 1, 1995, the “Compliance
Assurance Implementation Plan for Concentrated Animal Feeding Operations,” dated March 5, 1998, and
the “2000 Storm Water Enforcement Strategy Update,” dated February 1, 2000) also emphasize the
importance of focusing Regional and State resources on non-major diffuse sources of pollution that carry a
large risk to human health and the environment. In fact, historically, 45% of the formal enforcement
actions tracked in PCS were against minor facilities.

       OECA’s actions are not keeping the States from implementing a risk-based approach or from
addressing watershed priorities. Our MOA Guidance, national enforcement guidance, and strategies
provide States with the flexible framework they need to implement a risk-based program. Where a State
is authorized to implement and enforce the NPDES program, the State is responsible for identifying its
high-risk priorities and focusing its resources in those areas.

      In general, OECA agrees with many of the criticisms raised by OIG regarding the PCS system.
OECA disagrees, however, with the conclusion that PCS is not designed to accept data on minor facilities
or that EPA does not require States to input some minor data. Of the 55,660 facilities in PCS, 49,044 are
minors and 6,616 are majors. Historically, of the total number of facilities with some information on them
in PCS: 13,444 (27%) minors have enforcement action data, 29,883 (61%) minors have inspection data,
and 22,128 (45%) have effluent limit data. The PCS system will accept data on minor sources, including
CAFOs and storm water sources if the requirements for CAFOs and storm water monitoring are
consistent with those for NPDES individual permits. Moreover, the PCS Policy Statement requires
States to enter facility and inspection data into PCS for minor sources, and 40 CFR Part 123.45(c)
requires authorized NPDES States to submit an annual statistical noncompliance report on “nonmajor”
permittees indicating the total number reviewed, the number in noncompliance, and the number of
enforcement actions. We recognize that the majority of storm water dischargers are covered under
general permits and that EPA does not currently require storm water general permit data to be entered into
PCS and we don’t have guidance on PCS data entry for general permits. OECA is committed to
modernizing PCS, updating the Policy Statement, pursuing the option of electronic reporting, and exploring
ways of tracking new program areas (such as storm water). However, ultimately, it is up to the States to
commit the resources needed to keep up with their responsibility to input data into PCS and to report on
the noncompliance status of nonmajors.

      Attached are detailed responses for each recommendation in the audit report. The Office of
Enforcement and Compliance Assurance is working in all of the subject areas covered and will consider
your recommendations as we continue to move forward.

      Please give me a call if you have any questions or have your staff call
Kathryn Greenwald at (202)564-3252.


                                                     81
cc:   Eric Schaeffer, ORE
      Michael Stahl, OC
      Mary Kay Lynch, OPPA-C
      Michael Cook, OW/OWM




                               82
                                                        ATTACHMENT

                                    OECA Responses to Recommendations in Draft OIG Report,
                             “State Enforcement of Clean Water Act Dischargers Can Be More Effective”



I. Executive Summary

OIG is recommending that the Office of Enforcement and Compliance Assurance, in partnership with the Office of
Water and EPA regions, collaborate with states to develop risk-based enforcement priorities. EPA also should
make modernization of its Permit Compliance System a high priority. Teaming with the Office of Water and the
states, the Office of Enforcement and Compliance Assurance should ensure that the new system will meet both
federal and state needs.

OIG is also recommending that the Office of Enforcement and Compliance Assurance revise its enforcement
guidance to better define significant violations for toxicity test failures, minor facilities, and storm water
dischargers.

Lastly, the Office of Enforcement and Compliance Assurance should routinely determine whether states are
fulfilling their obligations to monitor and enforce discharge programs. To do so, it should develop consistent
criteria for in-depth program evaluations of state programs. These evaluations, along with state performance
measures, should be accessible to the public.

EPA Response: The Office of Enforcement and Compliance Assurance (OECA) has an exhaustive stakeholder process
in place to determine what the national enforcement priorities are; it includes consultation with the Regions, States, and
the Office of Water (OW). OECA has developed national risk-based strategies for the wet weather priorities and will
continue to assist the Regions in working with the States to implement them. Modernization of the Permit Compliance
System (PCS) is and will continue to be a high priority for OECA. OW and the States have been involved in workshops
to help identify the data requirements needed for management of the NPDES program. Additionally, an
OECA/OW/State data requirements team will be established at the PCS national users meeting in July 2001 to review,
validate, and finalize the identified requirements. The final data requirements as identified by OECA, OW, and the States
will be incorporated in the modernized PCS system.

Existing national enforcement guidance has flexibility to address toxicity, minors, and storm water violations. OECA will
work with the Regions to ensure that the States are aware of the guidance and will consider OIG’s specific
recommendations when guidance is updated in the future.

OECA agrees that State compliance and enforcement programs need to be periodically evaluated. EPA Regions do
assess State programs on a rotating basis and OECA now has a national evaluation process which focuses on “program
element reviews.”



Chapter 2: State Enforcement Strategies Need to Be Modified

OIG recommends that the Acting Assistant Administrator for Enforcement and Compliance Assurance:

3- 1. In partnership with the Office of Water and EPA regions, collaborate with states to develop risk-based
      enforcement priorities. Encourage states to develop mechanisms to evaluate tradeoffs in enforcement
      investments.

EPA Response: OECA already has a consultation process in place, in which Regions, States, EPA’s Office of Water,
and other stakeholders are extensively consulted in determining what the national water enforcement priorities should
be for each 2-year cycle. A major factor in identifying the candidates for priorities is the element of risk. To start the FY
2002/2003 process, in the Spring of 2000, Regions were asked to begin by engaging States and Tribes in a discussion of
national priorities. We received comments, suggested changes for existing priorities, and recommendations for new


                                                                  83
priorities from 16 individual States and their environmental agencies, as well as receiving collective State comments from
3 EPA Regional offices. Based on feedback received and combined with an analysis conducted at Headquarters, a
Federal Register (FR) notice was published on September 28, 2000 soliciting public comment on a list of 15 potential
priorities and encouraging suggestions for additional nominations. The comments received from the FR notice helped
set the stage for OECA’s “National Priorities Meeting” held on November 14, 2000. State, Tribal, Regional and
Headquarters managers attended the meeting. Fifteen priority candidates were described and discussed and attendees
were then requested to recommend their top choices for OECA’s FY 2002/2003 MOA priorities. Six State representatives
and 12 representatives from State associations attended the meeting and they all contributed to the outcome. The 6
recommended priorities are all current priorities, sending a clear signal that stakeholders and our regulatory partners
want OECA to continue working on those national priorities in FY 2002/2003.

While Regions can and do recommend that States participate in national water priorities, suggest where States might
focus their resources, and meet with States to conduct joint work planning, ultimately it is the State’s decision as to the
priorities it will set. We believe OIG should recognize State involvement in identifying national priorities and that a more
appropriate recommendation would be for OECA to develop a process to ensure States are implementing the risk-based
strategies we have.

3- 2. Initiate action to eliminate the regulatory requirement to inspect all major dischargers annually.

EPA Response: Our regulations at 40 CFR Part 123.26(e)(5) require that State programs have the “procedures and
ability” to inspect all majors annually. We believe that it is important to retain this regulatory requirement because not
all States are authorized to implement the NPDES program yet and this requirement sets a minimum, quantifiable
standard for States to be held to (i.e., a State applying for approval to implement the NPDES program must have
procedures and resources in place to at least inspect all of its largest dischargers annually). Major facilities are
considered high risk facilities because they generate the majority of effluent flow and toxic pollutant loadings. As
shown in the maps included in this audit report (p. 17 and 39), there still are numerous noncompliance problems with
major dischargers indicating that it is important that we maintain a field presence at these facilities.

OECA recognizes that a risk-based approach, such as addressing impaired watersheds, requires addressing majors and
minors which is why we issued the September 11, 1995 memorandum to the Regions entitled “Revision to Inspection
Coverage and Frequency Criteria of Clean Water Act Permittees.” This memorandum, as well as OECA’s Memorandum
of Agreement (MOA) Guidance, provides EPA Regions and States flexibility in shifting some inspection resources from
lower risk majors to higher risk minors. OECA’s guidance makes clear that minor inspections can be traded for major
inspections at a 2:1 ratio, using a risk-based rationale, if the Region/State is willing to report the minor inspection results
in PCS. Resistance sometimes arises from a lack of rationale (e.g., no risk-based strategy), unwillingness to commit to
the tradeoff ratio, and/or unwillingness to report minor data in PCS. Reporting and tracking outcomes from these
inspections is critical to addressing OIG’s concerns regarding the lack of data on minors and for EPA to document
results under the Government Performance and Results Act (GPRA).

We believe an appropriate alternative recommendation would be for OECA to ensure that any State that does not
commit to inspect 100% of its majors develops and implements an inspection plan that targets an appropriate mixture of
high risk dischargers (i.e., majors and minors) in priority areas such as impaired watersheds.

Chapter 3: Permit and Other Information Systems Inadequate

OIG recommends that the Acting Assistant Administrator for the Office of Enforcement and Compliance Assurance:

3-1.   Make modernization of the Permit Compliance System a high priority. Further, ensure that future systems:
       • Allows for submission and evaluation of self-monitoring reports for all dischargers, including minor
         facilities and storm water.
       • Tracks storm water permits, inspections, compliance rates, and enforcement actions.

EPA Response: Modernization of PCS is, and will continue to be, a high priority for OECA. The modernized system will
build in the capacity to allow for entry of all data element fields needed to track all dischargers, including minor facilities
and storm water facilities. Information tracked for those dischargers will include permit limits, inspections, compliance
and enforcement action data. PCS modernization is scheduled for implementation by the end of 2003.


                                                                    84
3-2.   Accelerate the development of the state data transfer system for the Permit Compliance System. Also, before
       proceeding further into design and development, work with the Office of Water to ensure there is an up-to-
       date policy statement for water system criteria.

EPA Response: Over the last year, OECA and the Office of Environmental Information (OEI) have been working closely
with our State partners in implementing the PCS Interim Data Exchange Format (IDEF). IDEF will ease the States’ entry
of required information from their modernized State systems into legacy PCS, and will simplify the transition of that
information entry into the modernized PCS. OEI is the lead for implementing the IDEF project and has developed the
schedule for implementation of the project. Acceleration of that implementation schedule needs to be addressed by
OEI. Currently IDEF is scheduled for full implementation in February/March 2002.

While OECA agrees that there is a need to update the PCS Policy Statement to address new data requirements, we do
not agree that this must occur before design and software development. Broad capacity will be built into the system as
indicated in the response to 3-1. Only a subset of that capacity is likely to be Federally required. Therefore, the Policy
Statement can be updated during system design and development.

3-3.   Have regions work with states to help ensure data elements needed for the new Permit Compliance System are
       included in state systems being developed.

EPA Response: OECA is in the process of finalizing the overall data requirements for the modernized PCS system. We
will continue to work closely with the States in developing those detailed data requirements. Until those requirements
are finalized, those States modernizing their systems should include in their modernized system the current PCS data
entry requirements as referenced in the current PCS Policy Statement.

For the most part, States do not coordinate or consult with OECA when modernizing their State systems as they are
built primarily to accommodate State needs. We will, however, request of Regions that they make a special effort to
discuss State modernization plans during their EPA/State program status meetings. Additionally, we hope that
extensive involvement of State representatives in the PCS modernization process will have a spill over effect in getting
States to include the necessary data elements in their systems.

3-4.   Continue to report the Permit Compliance System as an Agency-level weakness until the modernization
       project is implemented and the system data is reasonably accurate and complete.



EPA Response: OECA will continue to report PCS as an Agency-level weakness until all milestones have been met.
One of the milestones is the completion of PCS modernization which is scheduled to occur by the end of 2003.

3-5.   Revise guidance to specify that whole effluent toxicity violations are significant violations. Revise
       regulations to require whole effluent toxicity violations to be reported on quarterly noncompliance reports.

EPA Response: In many ways, whole effluent toxicity (WET) is treated like any other parameter in the NPDES program,
i.e., the permittee reports self-monitoring data on its discharge monitoring report, WET results are entered into PCS and
tracked, and violations should be reviewed and are subject to a range of enforcement responses. The major exception is
that WET violations are not automatically flagged as significant noncompliance or “SNC.” Because of the variability in
permit requirements (e.g., many permits just require monitoring with a trigger for follow-up study instead of a numeric
limit) and the variation in frequency of compliance monitoring required (e.g., quarterly or annually),WET violations do
not neatly fit under our existing SNC criteria. However, EPA’s existing regulations and guidance provide Regions and
States flexibility to identify WET violations as significant. The regulations at 40 CFR Part 123.45(a)(2)(G) currently
provide the Director with flexibility to report any violation of “substantial concern” on the QNCR. EPA’s 1989 “Whole
Effluent Toxicity Permitting Principles and Enforcement Strategy” states that any violation of a WET limit is of concern
and should be reviewed. EPA’s “Enforcement Management System” enforcement response guide was last revised in
1989 and recommended responses to WET violations were added.

When OECA revises the NPDES definition of SNC, we will re-consider the applicability of SNC criteria to WET.




                                                                  85
3-6.   Establish a definition of significant violations for minor facilities, including storm water dischargers. At a
       minimum, include nonsubmission of self-monitoring reports in this definition. Also, define “significant”
       minor facilities. Include facilities impacting impaired waterways in this definition.

EPA Response: The Director has discretion to designate any facility with violations of concern as a “major” thereby
subjecting the facility to SNC criteria, and 40 CFR Part 123.45(a)(2)(G) currently provides the Director with discretion to
report any violation of “substantial concern” on the QNCR. OECA will commit to consider developing guidance on
when a minor should be designated as a major and to include factors such as non-submission of discharge monitoring
reports and impact of the discharge on impaired waterways.

Chapter 4: Storm Water Compliance Systems Have Deficiencies

OIG recommends that the Acting Assistant Administrator for Enforcement and Compliance Assurance:

4-1.   Work with EPA regions in assisting states to:
       • Develop mechanisms to better balance their limited resources between all categories of dischargers, as is
         indicated by the states’ analysis of risks to water quality.
       • Create effective strategies for identifying storm water nonfilers.
       • Develop sound storm water inspection programs which include risk-based inspection schedules and
         tracking and follow-up of inspection results.
       • Establish tracking systems for citizen complaints.

EPA Response: OECA will continue to work with the Regions and States to implement risk-based approaches to water
enforcement; OECA’s MOA guidance and national strategies provide flexibility to address majors as well as minors.
OECA’s 2000 Storm Water Enforcement Strategy outlines a recommended “sweep” approach of targeting a priority
watershed/geographic area, then focusing storm water inspections and enforcement actions on a category of non-filers
(e.g., a priority industrial sector or large construction sites) in that area. While EPA can assist the States by providing
direction, guidance, training, and work-sharing, States must take responsibility to develop appropriate planning
mechanisms to develop and implement risk-based strategies (which should include a sound inspection program and a
system to track citizen complaints), and balance their limited resources.

4-2.   Facilitate the development of a system which allows self-monitoring reports to be electronically scored for
       compliance. Consider low- cost options such as scan sheets (commonly used for electronic scoring of tests)
       and web-based reporting.

EPA Response: The current PCS system already determines compliance based on the electronic review of the discharge
monitoring reports, though some improvements are needed in the system. Modernized PCS will certainly have this
capability. Additionally, modernized PCS will provide the capability for facilities and States to electronically report
information utilizing the Agency’s Central Data Exchange portal and the National Environmental Information Exchange
Network for the transfer of NPDES data.

Chapter 5: Enforcement Actions Late and Penalties Insufficient

OIG recommends that the Acting Assistant Administrator for Enforcement and Compliance Assurance:

5-1.   Establish a clear and consistent standard for measuring the promptness of enforcement actions.

EPA Response: The NPDES program already has a “timely and appropriate” standard described in the NPDES
“Enforcement Management System.” We believe that a more appropriate recommendation would be for OECA to review
the consistency of its standard and ensure that the Regions and States are aware of it.

5-2.   Continue to work with the regions to assist states in establishing proactive enforcement strategies to help
       facilities avoid long-term serious violations due to plant or system obsolescence or capacity limits.

EPA Response: OECA, in conjunction with OW, has developed guidance documents and training workshops to assist
the regulated community in avoiding noncompliance due to plant or system obsolescence or capacity problems. Some

                                                                  86
specific examples are guidance with regard to implementation of nine minimum controls and a long-term control plan for
combined sewer overflows (CSOs) as well as guidance documents and training workshops for municipal officials and
their system operators and consultants on procedures to eliminate and prevent sanitary sewer overflows (SSOs) and
CSOs.

 OECA is involved in the development of a Guide for Evaluating Capacity Management, Operation and Maintenance
(CMOM) Programs at Sanitary Sewer Collection Systems which describes the management practices and operation
and maintenance techniques that have served municipalities best in the reduction and elimination of SSOs from their
systems. The audience for this guidance is State and EPA personnel who are assisting municipalities to comply with
SSO requirements. The guidance will also help municipalities make decisions on the rehabilitation and repair of their
collection systems and ways to better operate those systems. The guidance is scheduled for release as an interim-final
document early in fiscal 2002, and is planned to be finalized following the final publication of the SSO Rule.

Guide for Evaluating Capacity Management, Operation and Maintenance Programs (CMOM) at Wastewater
Treatment Plants will provide guidance to assist compliance monitoring inspectors in determining whether a CMOM
program is adequate for a particular wastewater treatment plant. The guidance will also be useful to municipalities for
determining whether their plants are following accepted practices and for addressing any discrepancies as needed in
order to improve or maintain compliance. The guidance is scheduled for release as an interim-final document early in FY
2002, and is planned to be finalized following the final publication of the SSO Rule.

Chapter 6: Improved Performance Evaluation and Measurement Needed

OIG recommends that the Acting Assistant Administrator for Enforcement and Compliance Assurance
routinely determine whether states are fulfilling their obligations to monitor and enforce discharge
programs. Specifically:

6- 1. Develop consistent criteria and measures for in-depth program evaluations of state programs:
      a.    At a minimum, all of the oversight criteria and measures in the 1986 Policy Framework should
            be included along with additional elements included in the Clean Water Act discharge
            guidance. Include the accuracy and completeness of data systems, the quality of inspections,
            and the reliability of self-monitoring reports.
      b.    Evaluate all significant discharge programs including storm water, minor dischargers, and
            concentrated animal feeding operations.
      c.    Use a uniform, objective scoring mechanism.



EPA Response: OECA agrees that a process for periodic evaluation of the Clean Water Act (CWA) discharge
program in each State would be useful. In fact, most Regions do conduct an assessment of State water
enforcement programs, either annually or bi-annually, though the nature of the assessment varies. Some
variability in the assessment process is necessary since priorities vary by State, as does work sharing with the
Region. For your information, the content of the review of State performance for any program, not just the
CWA discharge program, must be governed principally by the authorization agreements, grant work plans and
agreements and the Performance Partnership agreement between the Region and State. Those policies and
agreements should define priorities, describe work sharing arrangements between the Region and State, and
define the evaluation process to be used, among other things.

OECA now has a national evaluation process which focuses on “program element reviews” among programs.
These reviews focus on examining policy and implementation of a particular program element in all Regions and
a sample of States. OECA is responsible for working with the Regions and States to evaluate a wide scope of
statutory programs, and while resources do not permit a commitment to ensure a top to bottom evaluation of the
enforcement of the CWA discharge program in every State, OECA will consider how best to concentrate on key
concerns of the program.

Since the OECA program element reviews will each address a different program or problem, there will not be a
standing uniform scoring mechanism. However, within each review, the questions used and the weight
assigned to the answers will be the same. OECA agrees to continue to develop for each of its program element


                                                             87
reviews a consistent set of criteria and measures as part of its design for each review. All applicable policy is
considered in designing each review. For NPDES, this will include criteria from the 1986 Policy Framework.
However, we are not yet in a position to identify what reviews will be undertaken in the future.

6- 2. Have regions perform in-depth evaluations of state enforcement programs every two to three years.
      Make these evaluations available to the public through publicity releases or the EPA website.

EPA Response: Many Regions do perform in-depth evaluations of State enforcement programs on a rotating
basis, using the Performance Partnership Agreement, grant agreements, and existing policy as a basis for those
evaluations. Again, OECA agrees that it would be ideal to have these evaluations of enforcement programs in
all States every 2 or 3 years; however, resources simply would not allow that in some Regions. OECA also
agrees that publicity can be an effective factor to ensure competent program operations; however, active
publication of all evaluations on a website may exacerbate Federal/State tensions and inhibit a frank, open
review process. OECA reserves use of the website as conditions dictate.

6- 3. Continue to remind state partners, including the Environmental Council of the States, of their
      obligation to use core performance measures that address the effectiveness of enforcement programs.

EPA Response: OECA agrees to continue to do so, and suggests that OIG encourage the States directly where
possible to do so as well. In FY 1999, $1.8 million was awarded to eleven States to develop outcome measures,
and in FY 2000, another $1.2 million was awarded to 10 States to develop outcome measures specifically for
compliance assistance. OECA is also discussing with States possibilities for funding performance measurement
work within the NEPPS framework.

6- 4. Have regions collect and use all core performance measures to consistently measure the effectiveness
      of state enforcement programs on an annual basis. Consolidate these measures nationwide and make
      them public.

EPA Response: States currently report on the required core measures through national data systems. It is the
optional measures which the States have opted not to use. OECA will continue to promote the use of the
optional measures through all means available to us, including grants. OECA does consolidate information on
required core measures of outputs nationally, and this information is used by the Regions in their performance
discussions with their States and is available to the public on request.

6- 5. Work with regions to assist states in setting specific goals and standards for compliance, recidivism,
      the timeliness of enforcement actions and other important measures.

EPA Response: While the above measures are not “core measures” for States, OECA has established
performance standards for the timeliness of enforcement actions which, for the most part, derive directly from
the 1986 Policy Framework. Regions have worked with States to have them adopt these standards. In fact,
OECA includes State performance on this standard in some of its program management reports. Since the
measure for recidivism is new, OECA has wanted to get some experience with the measure before establishing
performance goals. Likewise, we have not set performance goals for compliance rates, recognizing that
compliance rates are the product of many factors, not just our OECA activities. OECA does plan to work with
the States through an ECOS grant to assist in developing a consistent approach to determining compliance
rates. OECA does monitor and report on recidivism and timeliness on a national basis and is considering setting
a national target for recidivism for all programs as well as a national target for improving compliance.

Exhibit 2: Other Matters, Key Management Decisions Needed for PCS

In evaluating whether the modernized system and components would remedy problems with data gaps, OIG
identified several concerns that they believe should be promptly addressed:
        • Data Entry Requirements Not Updated.
        • Incomplete Requirements Document.




                                                               88
EPA’s Response: OECA has already worked extensively with OW, particularly the Permits Division, to identify
data requirements. A number of special sessions were held with OW personnel when they were unable to
attend the established sessions. We intend to continue to work with OW and the states to finalize data
requirements, both for existing programs and for new regulatory activities which are not currently well handled
in PCS. In the next several months, PCS modernization managers will be working with OW to verify that
requirements provided previously by them are still accurate and complete. Additionally, an OECA/OW/State
data requirements team will be established at the PCS national users meeting in July to review, validate, and
finalize the identified requirements.

Once the data requirements are finally established, a workgroup, including EPA Headquarters and Regional
representatives, as well as States, will be formed to identify the subset of data requirements which will be
federally mandated for entry into PCS and, which currently required data elements can be eliminated. The PCS
Policy Statement will then be modified to incorporate the data elements which States/Regions are required to
enter into PCS as well as the universe to which those requirements will apply.

       • Key Decision Documents Are Needed.

EPA Response: The System Management Plan (SMP) is a document which contains information on why the
system is needed, what contract will be used, who is the project manager, what is the estimated cost, etc. While
such a plan was done very early in the planning phases of PCS modernization, it was replaced with the OECA
ITMRA submission. This submission contains all of the information required in the SMP, is reviewed by all
management levels and is approved by OECA’s Deputy Assistant Administrator. It is then reviewed by peer
review teams within the Agency and annually provided to OMB as part of the Agency’s overall response to IT
investment reporting requirements of the Clinger-Cohen Act. As this document is updated each year, we
believe that it serves the purpose of the SMP; however, we will update the SMP by December 2001.

OIG suggests that the Office of Enforcement and Compliance Assurance collaborate with the Office of Water
to create an updated data entry policy. Upon completion of this policy, OIG suggests that the Acting
Assistant Administrator for Enforcement and Compliance Assurance:

       • Complete the systems requirements document.

EPA Response: Data requirements were collected from EPA (OW and OECA) and States to determine the scope
of the modernized PCS system. The next phase of PCS modernization is the design phase. One of the major
products from that phase is a design specification document. This document will be developed with very
intense participation by EPA and States (both direct users and interface States). The design specification
includes data elements to be collected in PCS, data entry screens, report formats, and specific functionality to be
supported, including electronic reporting efforts being managed elsewhere in the Agency. This effort will begin
in July of this year with the National PCS meeting and will be completed by March of 2002.



       • Execute memoranda of agreements with the Office of Water and state participants to help ensure (1)
         that the baseline requirements for the new system design are formally agreed to and (2) that both
         federal and state needs are addressed in the design of the new system.

EPA Response: While we agree that full consultation and coordination with the Office of Water and the States
is necessary, we do not agree that the development of MOAs with these parties is necessary or desirable. Such
a process would be extremely time consuming and resource intensive, and the goals of such a process can be
achieved in other ways. Coordination has already occurred (and will continue) with ASWIPCA and the Water
Subcommittee of ECOS. Decisions on policy and system issues will be handled at a senior level between OW
and OECA with recommendations coming from the PCS Steering Committee (representing EPA Headquarters,
Regions, and States). One of the tasks before the PCS Steering Committee and senior water managers is the
updating of the PCS Policy Statement and the identification of Federally required data elements. The schedule
below addresses this task. Again, Regions and States will be involved in regular formulation and decision on
these issues.




                                                             89
             Update System Management Plan                          05/01-12/01
             System Design Specification Document                   07/01-03/02
             Update Federally Required Data Element List            04/02-09/02
             Update PCS Policy Statement                            Ongoing-09/02

      • Perform a cost-benefit analysis of the new system that addresses the electronic reporting and data
        entry requirements, the system development costs, and the projected operational and maintenance
        costs over the life of the system.

EPA Response: This analysis is underway and should be completed by September 2001.

      • Establish and approve a system charter and system management plan.

EPA Response: We agree and will complete them by December 2001.




                                                          90
